<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




         INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                  NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                           Alabama
 ZACH WAMP, Tennessee                MAURICE D. HINCHEY, New York  
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                       
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 U.S. Geological Survey...........................................    1
 Minerals Management Service......................................   81
 Office of Surface Mining Reclamation and Enforcement.............   91
 Bureau of Indian Affairs.........................................  131
 Office of Special Trustee for American Indians...................  271
 Office of Insular Affairs........................................  273
 Office of the Solicitor..........................................  307
 Office of the Inspector General..................................  313
 Natural Resource Damage Assessment and Restoration...............  355
 Indian Health Service............................................  361

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-252                     WASHINGTON : 2000

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida               
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


    Offset folio 2 insert here

<SKIP PAGES = 001>


 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                          Thursday, March 16, 2000.

                         U.S. GEOLOGICAL SURVEY

                               WITNESSES

CHARLES G. GROAT, DIRECTOR
CARLA M. BURZYK, BUDGET OFFICER
JOHN D. TREZISE, DIRECTOR OF BUDGET, DEPARTMENT OF INTERIOR
KATHY CLEMENT, DEPUTY DIRECTOR
PAT LEAHY, CHIEF GEOLOGIST
DENNY FENN, CHIEF BIOLOGIST
DICK WITMER, CHIEF GEOGRAPHER
ROBERT HIRSCH, CHIEF HYDROLOGIST
ROBERT McLEAN, DIRECTOR, NATIONAL WILDLIFE HEALTH CENTER, MADISON, 
    WISCONSIN

                      u.s. geological survey's age

    Mr. Regula. I think we will get started. Today we have the 
United States Geological Survey. How long has this agency been 
in existence?
    Dr. Groat. 120 years.
    Mr. Regula. It is one of the older agencies, isn't it?
    Dr. Groat. 1879.

                           early u.s. mapping

    Mr. Regula. That is interesting. I did a lot of land and 
title work when I was practicing law, and it amazed me how 
those surveyors could do locations back in the 1700s where 
there was nothing but forests.
    Dr. Groat. Find their way through the trees.
    Mr. Regula. Right. Yet they did a pretty darn good job 
laying out Ohio, for example, into sections and quarter 
sections.
    Dr. Groat. On foot and on horseback.
    Mr. Regula. I think George Washington at one time was a 
surveyor, even in the Ohio country.
    Dr. Groat. He was.
    Mr. Regula. Well, we are pleased to welcome the USGS team. 
Is there anybody watching the store?
    Dr. Groat. We left a couple.
    Mr. Regula. It is like when the President comes to the 
Capitol Hill, always one cabinet officer has to stay away so 
there is a succession in case of emergency. Anyway, you are a 
very important agency. We welcome your testimony and, Mr. 
Director, we will put your full statement in the record and 
look forward to whatever you would like to tell us about how 
much money you need and why.

                             introductions

    Dr. Groat. Thank you, Mr. Regula. Let me start by 
introducing just a few people to you. I think Mr. Kaplan has 
introduced you indirectly to Kathy Clement, the Deputy 
Director.
    Mr. Regula. The bride to be.
    Dr. Groat. We also have our Associate Directors here this 
morning, starting with Pat Leahy over here, who runs our 
geology program, Denny Fenn, biology, Dick Witmer, geography, 
and Bob Hirsch, water. You know Carla Burzyk from our budget 
office, as well as John Trezise here from the Department.

                            opening remarks

    I'm pleased to have a chance to make a few comments based 
on my testimony and I will hit the highlights. One of the 
things I wanted to do is respond at least briefly to what this 
committee asked us specifically about last year which was our 
future, what direction the Survey was going. I want to assure 
you that we have not changed our science role of trying to 
monitor and understand changes in places that people care about 
and that we really want to build on what we have learned over 
the past 120 years about the importance of understanding the 
way that the Earth works and the fact that if we are successful 
in understanding that from a scientific point of view, then 
science can really play a significant role in preventing 
crises, creating opportunities, and supporting long-term 
solutions to some of our most serious problems.

                              usgs mission

    We really see our mission in the USGS is to use our 
scientific capabilities to understand natural processes and to 
communicate those understandings to the people who really need 
those understandings to make the decisions that are so 
important to the resources and the environment in this country.
    I want to assure you and the committee I have asked our 
science leaders to develop future science directions for the 
bureau that are consistent with this vision of the kind of 
contributions we can make. Also, we are making an extra special 
effort this year and in the future to not only come up in our 
own minds with what science is needed, but in a very organized 
way to ask those people who use our science and who are 
partners in conducting our science.
    Mr. Regula. Do you include other government agencies?

                           listening sessions

    Dr. Groat. Other Federal agencies, State agencies, 
universities, communities. In fact next week, for two days, we 
are having what we are calling listening sessions. We have a 
large number of organizations that want to come in and just 
tell us what they think about us and about our programs. We are 
looking forward to that.
    We are going to try very hard to make sure that our science 
goals do enable us to reach fundamental understandings of 
change, that our science is directed towards understanding 
Earth and life systems so we can model them and then make 
projections into the future, which is of course what we want to 
do the most.
    We are also trying to develop tools that are needed to 
answer critical management questions, to be able to communicate 
our science. Finally, because there are many organizations that 
do science in some form; we are particularly interested in 
finding what our unique contribution can be to gaining science 
understandings.
    These directions will build on our core scientific 
strengths which you and the committee are well aware of and 
remind us of--our ability to monitor, interpret, and maintain 
long-term databases that are key to understanding the changes 
and processes that are important.

                         outstanding scientists

    We also are going to rely, as we always have, on the 
outstanding cadre of scientists that we have. I think sometimes 
their excellence isn't recognized as broadly as it should be in 
the scientific community in general and by the public. They win 
many awards, do first class work, and are clearly our strength.

                       infrastructure investments

    We also have to match our investment in people with 
investments in infrastructure. Some of our most pressing needs, 
if we are going to be true to our goal to monitor and 
understand, are equipment and monitoring tools, that we have in 
the form of earthquake monitoring and streamgages, for example. 
They are so critical in getting those processes measured, 
monitored and the information into people's hands. We hope in 
this budget and budgets in the future to convey to you the 
importance of that as well as some of the more important tools 
such as the Landsat program that provide us with new ways to 
survey and monitor the Earth that are much more efficient than 
some of the ways we have had in the past.
    So in that spirit, as I pointed out, we want to carry this 
message, our intended goals, our past records, and our 
capabilities to our stakeholders and let them help us shape our 
future.

                           budget highlights

    I will just make a couple of comments on the budget request 
that we put forth this year. Our first priority in the budget 
is the safety of people in this country. We feel that our 
natural hazards program is one of those that contributes most 
directly to the understanding of hazards and the ability to 
predict and minimize damages from them. As the cost of natural 
disasters has skyrocketed to $50 billion a year, we have 
recognized the need to increase our ability to monitor 
disasters in real-time. We are requesting this year $2.6 
million to upgrade our earthquake monitoring system in critical 
cities where most people are in danger by putting at least 150 
regional and urban seismic stations in place. Also in the area 
of flood prediction and understanding, we are seeking $4 
million to improve our existing streamgaging network. In both 
cases these are things that the Congress has specifically taken 
an interest in and asked us to talk about.
    We also want to make it possible for people, wherever they 
live, to enjoy not only a healthy environment but the ability 
to earn a decent living, so we are asking for funds this year 
to communicate our science to them through decision support 
systems in the urban areas where urban growth is rapidly 
encroaching on resources that are important to not only the 
urban areas themselves but to the country. We are also 
supporting a program which would provide $30 million for 
partnership projects across the country to both create and 
increase the use of geospatial information in decision making.
    Resources are an important part of our program and 
understanding how the land changes and how it responds to 
changes imposed on it is an important part of our program. We 
want to develop more sophisticated tools for predicting how the 
land interacts with the oceans and with the atmosphere and how 
it reacts to the many uses that humans are increasingly putting 
on it as our population grows.
    We singled out this year one of the more critical areas 
where both congressional and on the ground attention has been 
focused and that is the Pacific Northwest, where there are some 
very critical habitat issues related not only to the salmon and 
fish but related to forest use and understanding the 
ecosystems. The systems that support all of these things are of 
both commercial and environmental importance. So we are 
requesting a $4 million increase to enable us to provide the 
integrated science in the Columbia River Basin that is 
necessary for that. We are also seeking an additional $1.3 
million to increase our capabilities in areas we have been 
working in the past in the Yellowstone area and Mojave Desert 
and in the Great Lakes, with a new effort and an integrated 
program.
    We are also seeking $10 million for decision support to 
protect America's heritage and to cooperate with States with 
state planning partnerships in making this information 
available.
    Finally, a really important part of this bureau's 
responsibility and the Department's responsibility is towards 
the western lands and the parks and refuges across the country. 
A $13 million request is included in our budget for 2001 to 
provide integrated science support capabilities to the 
Department of the Interior bureaus and $2 million to enhance 
our assessment of amphibian loss in the United States by adding 
the upper and lower Mississippi areas to our amphibian efforts.
    And finally, one of the emerging areas where our biological 
capabilities are coming to bear is the relation between 
wildlife health and human health. We read in the papers about 
the West Nile virus last year and the encephalitis cases that 
were caused by it in New York City. There is a lot of concern 
on the East Coast that as the spring comes and mosquitoes come 
back out again, we are going to see a resurgence of the 
problem. We are requesting an additional $1 million to enhance 
the capability of our Fish and Wildlife Disease Program to deal 
not only with West Nile virus but with other wildlife diseases.
    Mr. Regula. Do you work with the Fish and Wildlife Service 
on all these things?
    Dr. Groat. Yes, we do. We work with U.S. Fish and Wildlife 
Service on that one in particular. We also work with the 
Centers for Disease Control and Prevention many of the health 
agencies in State and Federal Government.
    Our Cooperative Research Units Program in the Biological 
Research activity is an important part of our cooperation with 
universities. This year we will reach an historic level if we 
are successful in getting the increase we requested of 
$700,000. That will fill out the scientific staffs in all the 
Cooperative Research Units across the country. They have never 
been at that level before and our request is a testimony to the 
value we place on them and the important role they play in our 
biological research program.
    Mr. Regula, that is in summary form where I think our 
emphases are in making our science useful and where we think 
the budget enhancements would make us more effective and 
efficient.
    I welcome questions.
    [The statement of Dr. Groat follows:]
     Offset Folios 13 to 18 Insert here

<SKIP PAGES = 006>

                     EVERGLADES SCIENTIFIC RESEARCH

    Mr. Regula. I have a few questions, and then I'm sure Mr. 
Cramer does. Everglades. How involved are you in this project 
of restoring the water and the Everglades and the whole water 
resources issues in the Everglades?
    Dr. Groat. We are heavily involved. We have about $8.6 
million in our budget that is to support studies in the 
Everglades in cooperation with the other agencies that are 
involved there. In addition to that, through some money that is 
appropriated to the National Park Service, we receive grants 
and contracts to do work related to their mission. I would say 
that we are a significant player in the water and life science 
issues there.
    Mr. Regula. Would you characterize yourself as the lead 
science agency on the Everglades--on the entire package which 
includes the Everglades, the South Florida Water Management 
District, agriculture, the whole works that is all part of this 
program?
    Dr. Groat. I would say the lead Federal science agency, 
certainly, yes.
    Mr. Regula. Does the State have any capability?
    Dr. Groat. The State is involved. I couldn't answer how 
much they are supporting science but they are certainly a 
partner in the planning efforts.

                   INTERNATIONAL INFORMATION SHARING

    Mr. Regula. I understand that. You mentioned in your 
opening statement about evaluating the Earth as a total. Are 
there other countries that have comparable agencies to yours 
that you can share information with and work with?
    Dr. Groat. It has been interesting to watch over the past 
few years how countries which have increasing pressures on 
their resources, both living and non-living, are looking to 
geological and biological based organizations to work with. We 
are seeing in our own continent the Canadian Geological Survey, 
which was at one time a very traditional mapping and minerals 
oriented program, expand their program to get into such things 
as global change, marine issues. Mexico is putting together a 
National Geological Survey for the first time that will deal 
not only with minerals but with mapping.
    We were recently in Saudi Arabia where the Saudis, who are 
very much a traditional energy producing area and mineral 
producing area, are creating a Federal Geological Survey to 
also deal with seismic hazards, coastal problems, and water 
problems. And many are involving biological elements in this.
    So there are existing surveys that are strong and there are 
emerging surveys that have a similar function to ours in other 
countries around the world. We do cooperate closely with them.

                  International Scientific Cooperation

    Mr. Regula. You do share information then. Do you have 
countries that send their teams over here to find out how you 
do it in this country?
    Dr. Groat. We do. We are very open to having capacity 
building operations where they come to our centers and to our 
laboratories and we work with them, allowing them and helping 
them to use the tools that we have available to apply to their 
problems in their countries.
    Mr. Regula. The three that occur to me as huge land masses 
would be China, India, and Russia. How much activity do they 
have respectively?
    Dr. Groat. Just by coincidence riding up here this morning 
I was talking with Denny Fenn about some of the cooperative 
work we have with China. We have about a dozen or so people 
from Hunan Province coming to the United States in April to 
spend 5 weeks learning how our National Biological Assessment 
Program works because they are becoming more and more 
interested in that. We have groups from Canada. We have groups 
at various times from around the world here.
    The recent Central American hurricane disaster a year or so 
ago, Mitch, brought us there to help them but it also brought 
some of their folks here to gain some of those skills.

              INTERNATIONAL CONCERN FOR ENDANGERED SPECIES

    Mr. Regula. Are other countries showing concern about 
endangered species?
    Dr. Groat. I think they are. They react in different ways. 
Some of them set aside very tight preserves where nothing else 
is allowed to happen to protect certain species. Others take a 
more broad based approach to it. But the concern is that as 
populations grow that those kinds of things are going to be 
more prominent issues.

                          CLEAN WATER PROGRAMS

    Mr. Regula. Are you involved in the clean water programs 
that are becoming more and more critical in the United States 
in terms of preserving the quality of water, both streams, 
lakes, for domestic use?
    Dr. Groat. I think that is one of the best examples you 
could pick to demonstrate how valuable our long-term monitoring 
capabilities are because in looking at trends of how water 
quantity in surface- and ground-water changes, how water 
quality changes with time, so we can measure the human impact. 
Our records and capabilities are used very extensively to 
characterize that. We also have topical programs that deal with 
water quality issues such as hypoxia in the Gulf, nutrient 
transport, arsenic in New England, various kinds of pollutants 
that are important. So we both monitor and do specific work 
related to those things and we work closely with EPA in 
providing that information to them in their programs.

                         STREAMGAGE MONITORING

    Mr. Regula. You mentioned stream monitoring. I think maybe 
some other agencies do that also. How do you avoid duplication 
of effort?
    Dr. Groat. Well, in stream monitoring at least from a 
streamgaging point of view, there aren't too many organizations 
that maintain their own streamgages. They tend to cooperate 
with us as partners through the Federal-State Cooperative 
Program where we maintain the gages that are of interest to 
both us and them. That is not to say there is no other agency 
that ever put a streamgage in. They do but not to any great 
extent.

                           GROUND-WATER STUDY

    Mr. Regula. Last year our committee requested that the 
survey study the ground-water program and provide ideas for the 
development of a ground-water research agenda. Is that under 
way, and does your budget continue to address this high 
priority area?
    Dr. Groat. It is underway. Our concern about the adequacy 
of our ground-water program is very high. We had hoped this 
year, to see a significant increase in our request for ground-
water programs. We were not successful this year, but we will 
certainly try again. We met with a group of water agencies from 
the States yesterday and discussed with them the importance of 
ground water and the need for more monitoring of ground-water 
conditions. They certainly agreed.
    We will be adamant in our support for ground-water 
programs.

                         STREAMGAGE REPLACEMENT

    Mr. Regula. The survey has lost over 500 streamgages, I 
assume for various reasons. Is anything being done to replace 
these units?
    Dr. Groat. Yes, in response to the request that Congress 
made for the USGS to provide information on what it would take 
to bring the Nation's streamgaging system up to par, we 
provided a report. The $4 million we requested this year would 
reactivate, upgrade, or install approximately 100 gages across 
the country. Some of those are ones that are inactive. Some are 
being lost because cooperators are unable to match the funding 
that we can provide. In some cases we can't match the funding 
they provide. A more stable funding base is a central part of a 
truly national streamgaging program.
    Mr. Regula. Do you need more money for this program?
    Dr. Groat. We need more money, we need to have less 
reliance on local cooperators to maintain a very stable system 
for the country. We think it is a Federal and national 
responsibility.
    Mr. Regula. Looking at your programs it seems like you 
slanted them to some extent to partnerships, money going out to 
States and local communities, but I think our first priority is 
the Federal responsibility.
    Dr. Groat. I would agree particularly in streamgaging that 
to the greatest degree we can support that Federally, then we 
will have a much more stable system. We would certainly want 
local input as to where those stations ought to be, but if we 
depend on local funds to support them, then the kinds of losses 
you pointed out will occur for various reasons.

                         NATION'S WATER SUPPLY

    Mr. Regula. Water is not a State or local commodity. It 
travels over great areas, and I think you have to look at the 
Nation's water supply and the totality in terms of trying to 
protect it for the future needs.
    Dr. Groat. I would agree. There are very few places whose 
water supply depends only on their own back yard. It comes from 
streams across county and State boundaries. It comes from 
basins across boundaries. There is truly a Federal role in 
integrating that information.

                           U.S. WATER QUALITY

    Mr. Regula. Do you think water quality in the United States 
is deteriorating?
    Dr. Groat. I think there is no question that water quality 
is deteriorating. We hear a lot of talk about quantity and 
certainty quantity is going to be a challenge but the quality 
issue, whether it is the result of new land uses like confined 
feeding operations, whether it is MTBEs, whether it is 
pesticides, herbicides, and pharmaceuticals that weren't in the 
water years ago but that are now there because of our modern 
society, the threat to water quality is certainly going to 
grow.

                  EVERGLADES SCIENCE BEFORE INVESTMENT

    Mr. Regula. I mentioned the Everglades. In your opinion, is 
the science that is available in reconfiguring the water system 
in the Everglades good science? That is really what this is all 
about--we are going to spend a lot of money to do this. Is the 
project based on good science? Is science out front, or is 
science catching up?
    It seems to me historically things have been done in South 
Florida and the Everglades that weren't predicated on science. 
The Corps of Engineers dug 1,800 miles of canals. I am not sure 
that was a scientific decision. Now we are talking about a huge 
investment down there, and that is the thrust of my question. 
Are we basing it on good science? Is science out front instead 
of lagging back here?
    Dr. Groat. I would express due concern. I think good 
science is being done there. I think you would have a hard time 
convincing everyone that the science is well coordinated and 
that the science is necessarily in all cases being applied to 
the priority issues. In some cases the planning does get out in 
front of science. I have long experience in Louisiana where 
coastal land loss is a big issue. Much of what was done that 
caused the coastal land loss and even to try to fix it was done 
before people were concerned about using science as a tool for 
doing it right. For science to get out in front is a big 
challenge.
    We are seeing an experience in the California Bay Delta 
area, for example, where they are looking for a coordination of 
all the science being done there so they can have a timely and 
significant input into the process. We haven't seen the same 
thing really happen in the Everglades. I frankly think it is a 
missing element there.
    Mr. Regula. I am really concerned that in the rush to deal 
with water supply for southeast Florida population growth, to 
ensure the Everglades is adequately watered, and to meet 
agricultural interests that maybe we are getting ahead of the 
science and we will invest a lot of money without knowing 
exactly what the end result will be.
    Dr. Groat. I think that is possible. I think it is only a 
harbinger of things to come. It is certainly an area that there 
is a lot of attention and resources focused on, but we can find 
many places in the country where water issues are becoming 
increasingly sensitive and we are in danger of getting ahead of 
ourselves in responding to them. Then we risk doing something 
that we will pay the penalty for, for generations to come.
    Mr. Regula. The 1800 miles of canals is a classic example, 
a huge investment of resources there, and now we discover that 
maybe God had a better idea than we did.
    Dr. Groat. There is great value in looking at nature to see 
how systems ought to work as you retool systems that man has 
affected, no question.
    Mr. Regula. Mr. Cramer.

                    PROPOSED BUDGET'S FUNDING LEVEL

    Mr. Cramer. Thank you, Mr. Chairman. Welcome to the 
committee and thank you for your participation with my office 
in making sure that we understand an agency that I think too 
few of our colleagues understand and thank you for your 
positive comments about the chairman. This is the best 
subcommittee of the Appropriations subcommittees and we deal 
with one another in a very open, almost informal way and we are 
doing this to make sure we understand the boundaries that we 
can work within.
    This institution is full of mine fields that are beyond our 
control from time to time, but this chairman really helps us 
steer through those as best we can.
    You probably know that Mr. Dicks is in another hearing or 
he would be here and should be here shortly. I am sure he will 
want to ask you a number of questions as well. But I came in a 
little after you started with your opening statement, and so I 
myself am playing a little bit of catchup here.
    If you maintain the budget that you have or that has been 
put on the table, this is going to be a good budget year for 
you, a 10 percent increase, and that is not a luxury that you 
have had in a long time, and I was trying to understand how 
what you do is within your territorial bounds and yet you have 
got the National Science Foundation and even the Weather 
Service in some cases.
    We had Carol Browner upstairs before my other subcommittee, 
VA-HUD, on the EPA issues that are occasionally troublesome for 
a lot of us, to say the least. The Secretary was here before 
and said that even with this fiscal 2001 budget you were still 
underfunded given the importance of your mission and the 
quality of your science. Where would you like to go in the next 
few years and what does this budget represent for you as an 
improvement on what you have had to deal with in the past, and 
try to give us some brief overview.
    Dr. Groat. I think this budget in a couple of cases opens 
the door to areas where we need to open the door wider, and I 
point there to two areas in particular: the natural hazards 
area in the sense of earthquakes and floods and in the water 
area in the sense of ground water. We see water resources in 
total is probably the most challenging issue that is going to 
face this country and the world in the future. We believe we 
have something unique to offer in understanding, as Mr. Regula 
questioned, both the quality and quantity of surface and ground 
waters. I would see our program in water science, broadly 
interpreted, as expanding.
    We think that the ability to bring the talent that we have 
in our four different disciplines together to provide 
integrated understandings of some of these critical resource 
issues, whether they be watersheds, river basins, coastal 
areas, and human and wildlife health areas. This is something 
we can offer that no other Federal agency, or State agency for 
that matter, can bring to the table.

                            CREDIBLE SCIENCE

    We also think that, again along the lines of Mr. Regula's 
question, that science, to be valuable in providing guidance 
for decisions at the State, local, and Federal level, needs to 
be objective, needs to be credible, needs to be free of the 
regulatory process. One important thing that the USGS does 
offer is that we are not tied to any management or regulatory 
function. Without discrediting in any degree the science that 
is done at EPA or DOE or places like that, they always have at 
least the appearance of concerns about how their science 
relates to their regulatory functions. It doesn't diminish the 
quality of their science but sometimes it does affect the 
credibility. We don't have that problem.
    I would hope the country as a whole and our partners in the 
States and universities would see that as an asset as we try to 
bring science to bear on some of these critical issues. I think 
we are working very strenuously and successfully with NOAA, 
NASA, and EPA to provide that scientific credibility to things 
that they care about, whether it be difficult water quality 
issues or whether it be difficult land use kinds of issues. 
There again we have the capabilities that they can use.
    So your opening comment was a telling one to us. We feel 
that sometimes what we are capable of doing isn't as widely 
known or understood as it should be and that we have nobody to 
blame for that but ourselves. We are trying very hard to become 
more visible and more open and in doing so increase 
appreciation for our science and make our science as responsive 
as it can be to what the true needs are. I think 
responsiveness, integrated science, and dealing with critical 
resource issues such as water are the key to our future.

                   COORDINATION WITH FEDERAL PARTNERS

    Mr. Cramer. How do you coordinate your program activities 
with other agencies with related missions like the National 
Science Foundation?
    Dr. Groat. Sometimes that becomes as much a matter of 
personalities as it does a matter of intent. Federal agencies 
will always say yes, we are cooperating and working together 
and can point to numerous examples where individuals from 
different agencies are in fact cooperating. We can do the same 
thing. We can find wonderful working relationships with EPA and 
the National Science Foundation, for example.
    What we haven't had in the past, and I and others are 
trying to build, is cooperation at the policy level where we 
agree how our missions can mesh and where we agree how, without 
getting terribly prescriptive about it, when initiatives are 
put forward, whether it be a study of drought or storms with 
NOAA or whether it be trying to understand biocomplexity with 
the National Science Foundation, that we truly need to plan 
together from the beginning of the program to determine how we 
are going to cooperate and then we will have a much more 
complete and thorough interaction between the agencies. We are 
making some steps in that direction.
    I always pick NASA as the best example of how that could 
work. NASA has a wonderful technology. They provide tools for 
understanding the Earth that we have never seen before and they 
are going to provide more in the future. NASA to some degree is 
getting into the applications business and we feel that that is 
really our business. We have the capability to use those tools. 
What a wonderful cooperative relationship it would be for the 
U.S. Geological Survey, with all of its capabilities, to 
provide the science on the ground, working in close cooperation 
with NASA as they provide us the tools and the technology that 
we use. It serves a dual purpose--one in seeing their 
technology applied and also gives us the wonderful tools to 
make those applications.
    I have had a couple of conversations with Administrator 
Goldin lately and he seems willing to open those kind of 
discussions. So I think it comes to personalities willing to 
cooperate and more cooperation at the agency level in addition 
to the good cooperation that does occur at the working level.
    Mr. Cramer. I think it is important and obviously a lot of 
our abilities to be successful have to do with establishing 
those kind of relationships, giving and taking with what 
boundaries exist, but when there is overlapping of course we in 
this arena expect there to be efficiencies and not duplication 
and coordination there. It is troubling this year that there is 
a $2.2 billion increase for science initiatives but nothing for 
USGS on the science side.
    Dr. Groat. We have some difficulties there, Mr. Cramer. I 
think part of it is our routes to funding. Those folks that 
work through the Science Committee seem to be identified as the 
science crowd. Since we are not in that parcel we tend to get 
classified otherwise. Those that know us, as you pointed out, 
realize that is not the case but for us to kind of elbow our 
way to the table in some of those things has been a challenge. 
We are working hard to do better, and I hope we can.

                     LIVABLE COMMUNITIES INITIATIVE

    Mr. Cramer. And I hope you can too and I hope we can help 
with that.
    You have identified four themes represented in budget 
increases and among those are the safer communities with a 
plus-up of $7.1 million and the livable communities program 
with $47 million plus-up. It is hard to understand how much of 
an increase that really is from what I have seen here. Could 
you give me either now or later some information about what 
kind of increase that represents and in the case of the livable 
communities, I have scanned your statement here, give us some 
idea of what you expect to accomplish with that kind of plus-
up.
    Dr. Groat.  The livable communities is a large increase and 
it is a large increase in our partnership arrangements. For 
example, within that is $30 million, of which $5 million would 
remain with the U.S. Geological Survey and $25 million would go 
in grants and contracts to cooperators. We have tried to 
relate----

                        LANDS LEGACY INITIATIVE

    Mr. Cramer. Is that lands legacy?
    Dr. Groat.  That is part of, what the administration has 
identified as its lands legacy program, yes. Our attempt there 
is to use those partnerships to enhance those that already 
exist. You see geologic mapping listed for $7.5 million there. 
We already cooperate and have a grants program with State 
Geological Surveys for geological mapping. This would further 
enhance that. Some of the money in that program would go 
towards our biological assessment programs, the GAP program and 
NBII. We already partner with people and this would enhance our 
ability to partner there.
    In the geography program, money would go to communities and 
others who we participate with in both using and gathering 
geospatial data. So it is a large increase geared to the impact 
of science on decision making but oriented towards partnering 
and increasing our partnerships with those who both use and 
provide data that is important to us.
    Mr. Cramer. Just in case Mr. Dicks is not able to get 
here--I am sure I will leave that question on the Columbia 
River to Mr. Dicks. I want to because my time is obviously more 
limited. I want to thank you for the cooperation that you and 
Olivia Ferriter, who I finally found back there from your 
office, have given to my office on an issue involving Key Cave. 
Mr. Chairman, this has been a nightmare for a certain community 
in my district that has had to deal with Fish and Wildlife and 
you have come to the table. In fact there is a meeting going on 
in my district today down there where you have come to the 
table and they are coming to the table and I think we are going 
to use your program as the main umbrella to achieve something 
down there that the entire community is looking forward to. So 
I wanted to thank you for that.
    Dr. Groat. Thank you.
    Mr. Cramer. Thank you, Mr. Chairman.

                         USGS VISIT WORTHWHILE

    Mr. Regula. Let me suggest to all the members if you can 
find a couple of hours, go out and visit USGS. You will find it 
is a remarkable facility and a great resource for the Nation. I 
think you will find it a very worthwhile expenditure of time.
    Mr. Dicks, do you want to wait while I do a couple more?
    Mr. Dicks. I would like to wait for one.
    Mr. Regula. Mr. Peterson.

                     GROUND-WATER RESEARCH FUNDING

    Mr. Peterson. Thank you and good morning. We are interested 
in your work on water quality. How does the current budget 
request for ground-water resource studies compare to the levels 
a decade ago and do the needs for this science compare to those 
of a decade ago?
    Dr. Groat.  I would have to provide that for the record, 
Mr. Peterson, as far as the actual budget expenditures compare 
to a decade ago. We have recognized in our own bureau planning 
that our efforts in ground water are not up to the need dealing 
with both quantity and quality. The need to monitor water 
levels and water quantity are becoming ever more apparent. We 
would hope in the future that would be a major both 
programmatic and budget initiative for us.
    [The information follows:]
    Offset Folios 37 Insert here

<SKIP PAGES = 001>

                    STREAM RESTORATION PARTNERSHIPS

    Mr. Peterson. But you can be helpful--in Pennsylvania we 
are dealing with a lot of mine reclamation and restoration of 
streams that have been actually killed by acid mine drainage. 
We have had some good success stories. We have a lot of 
organizations locally, when they get a little bit of Federal 
help, they are very successful. Can you be helpful to those 
organizations? Should you be a partner?
    Dr. Groat. We can. Both in our water program and in our 
minerals programs we are putting an increasing amount of 
emphasis on the restoration of lands that have been affected by 
the extraction of resources, whether it be minerals in the West 
or coal in the East, whether it is acid mine drainage or trace 
metals associated with metal deposits. I think our ability to 
measure and understand what were baseline conditions premining 
and what mining has contributed and how that affects the water 
and landscape quality is strong. Our ability to recommend 
methods for watershed restoration is a very high. We are 
working with the Office of Surface Mining, BLM, the Federal 
agencies, and State and local agencies to bring that expertise 
to bear.
    Mr. Peterson. Which of your regional offices should I--I 
have working groups that I think could use your expertise. 
Which office should we utilize for Pennsylvania?
    Dr. Groat. For Pennsylvania I think our district office in 
Harrisburg would be a good place to start.

                          SCIENTIFIC INTEGRITY

    Mr. Peterson. I will make sure that our people that are in 
those projects contact you and make sure that your people are 
there for them. I am not sure they are. They may be but I just 
never heard them mentioned. They have had some very good 
projects.
    You have sort of recently become the research arm of a 
number of agencies and some of those agencies would like to 
have that ability back in house and I guess when that first 
happened, I wasn't sure whether I thought it was good or bad 
but I guess the independence today, I guess I am sort of buying 
that maybe the independence is good. We have too many agencies 
that they are using the scientific side to--by not feeding us 
all the facts kind of use their own research arm to 
substantiate what they are doing rather than putting the facts 
out there and letting decision makers then decide from the 
facts. The scientific integrity, would you mind commenting on 
what your thoughts are?
    Dr. Groat. I do think the independence is important and I 
do think that makes the science credible and most useful. I 
think the specific thing you are referring to is when the 
National Biological Service, which drew its membership from 
various bureaus within the Department of the Interior, was put 
together and then ultimately placed in the USGS as a fourth 
division for the USGS. I think the intent there mirrors exactly 
what you are saying, that the need for that group to still 
serve the science needs of the management agencies is no less 
than it has ever been and the mission of it to serve those 
bureaus has not changed. We are very sincere in making that a 
reality, but the independence of the group doing the science, 
not under the cap of a particular management agency, does give 
it that credibility. Being housed in a science agency gives you 
the aura of being a science group and as well as the working 
conditions that are more suitable for conducting science.
    So we think it is the right way to go. We think it has been 
very productive. We think we are providing a good home for them 
and we think we are providing good service to those agencies 
who need not only biological but the geological, hydrological, 
and mapping capabilities that we have.
    Mr. Peterson. With the way the fragmented Federal 
Government is, I sometimes wonder how we get anything done. 
Even the committee structure down here----
    Mr. Regula. If you will yield.
    Mr. Peterson. Sure.

                            BIOLOGY IN USGS

    Mr. Regula. We went through this. Six years ago there was 
an attempt to create a new agency, the National Biological 
Service, and at our insistence in this committee, it was put in 
USGS for the very reasons that you are outlining. You have 
fragmentation, and we needed to talk in totality because 
science, as the Director has said, touches a whole lot of 
things. It is endangered species; it is water quality, air 
quality; it is stream impact, land use, et cetera. It needs to 
be, I think, in one place. That is why we put NBS in USGS and 
called it the Biological Resources Division.
    Mr. Peterson. Both in State and Federal Government we have 
had too many agencies that have kind of utilized their research 
arm to substantiate what they were doing, whether it was 
scientifically right or wrong. I think we all fight that 
because we only make--we make decisions on information received 
and if we don't have good data, we are not going to make good 
decisions. We can make political decisions but those are not in 
our long-term best interest in my view. We have to make all our 
environmental issues on sound science and what is really 
happening.
    Dr. Groat. I agree. Mr. Regula's foresight and the 
subcommittee's foresight in doing what it did with the 
biological group and putting them in that environment, set the 
stage to make what they contribute as objective as we hope the 
rest of our organization is. It also created the capability to 
put the life and earth sciences together to deal with some of 
these complex issues. You mentioned mine restoration, stream 
restoration. You have to understand the water, the biology, the 
landscape.
    We have all those capabilities in one organization able to 
work together to deal with it. Then you have not only objective 
and credible science, you have the right mix of science. So 
that action allowed us to do that. We have been very 
appreciative of that.

             WELLSBORO RESEARCH AND DEVELOPMENT LABORATORY

    Mr. Peterson. You know we have a special interest in 
Wellsboro Laboratory, which is a high-tech laboratory that has 
been highly underutilized. We want to continue to work with you 
to make sure that laboratory is adequately utilized. I guess we 
are interested if--genetic research is something that maybe 
ought to be a part of that.
    Dr. Groat. Well, given our current relationships with the 
State of Maine over genetic research, I don't know how much of 
that we want to do. Genetic research with different species, 
largely threatened and endangered, is the key part of the 
science of understanding those species and fisheries certainly. 
Fisheries was Wellsboro's strength in the past and can be again 
in the future. Genetics is one important part of that, as is 
the whole question of fisheries habitat, the ability to 
recondition streams, particularly in mine areas, where 
fisheries can survive and can benefit. That kind of work done 
at Wellsboro and places like that would have benefits across 
the country. I think that is the right track for a place like 
Wellsboro. I think we are pretty far along in providing the 
plan to put that lab into full use.
    Mr. Peterson. We appreciate that. Thank you.
    Mr. Regula. If you will, I think the Everglades is a 
classic example where you need one lead agency, namely, USGS, 
because there is such a diversity of groups involved in it. We 
want to be sure the science is out front in whatever is done 
there so that the huge expenditure of money achieves desirable 
results.
    Mr. Dicks.

                    ADVANCED NATIONAL SEISMIC SYSTEM

    Mr. Dicks. Thank you, Mr. Chairman. I am sorry that I 
wasn't here for your statement, Dr. Groat, but I did appreciate 
the chance. You came by to talk to me the other day. I just 
wanted to go through a couple of things. Earthquakes are faced 
by many areas of the Nation, including the Pacific Northwest. 
Recently an advanced national seismic system has been 
authorized by the House. How will such a system benefit those 
areas facing earthquake hazards? And I hope you would discuss 
the real-time hazards initiative in your response.
    Dr. Groat.  Certainly. Let me start with the real-time 
hazards initiative. One of the most exciting technological 
advances of the past decade is the ability to get information 
about impending hazards to people who need it in real time. 
Streamgaging can be essentially real time. Seismometers with 
the right types of instruments--strong motion detectors--can 
get the ground motion to places that are going to feel it ahead 
of the actual impacts so therefore it at least gives them a 
tiny bit of warning ahead of time. An important part of our 
upgrading of our national seismic network is putting the 
technology in place to do that.
    You are correct the report that we provided in response to 
Congress' request lays out a pretty aggressive national program 
and we have embarked on that in this year's budget with funding 
to provide those kinds of seismometers, up to 150 of them, to 
some of the more critical areas impacted by earthquakes.
    Mr. Dicks. How much money is requested?
    Dr. Groat. $2.6 million, I believe.
    Mr. Dicks. $2.6 million?
    Dr. Groat.  But I would have to also say that the number in 
our Advanced National Seismic System report to the Congress 
said it would take $170 million to equip the Nation in a way 
that is consistent with the need. So it is a very small step 
but it is important that we take the first step.

                           EARTHQUAKE PROGRAM

    Mr. Dicks. It says here it is expected that legislation to 
reauthorize the earthquake program will be enacted into law 
this year. This legislation proposes over $30 million per year 
to replace the Nation's outdated seismic network. Have you 
taken a position on enactment of this bill?
    Dr. Groat.  Yes, we have. That is the National Earthquake 
Hazards Reduction program which the Science Committee did 
approve. It was passed by the House, I believe, and is still 
pending in the Senate. That bill did authorize the $150 million 
or so for the seismic network, and we were very supportive 
because we feel that is the kind of science that needs to be 
done to provide the advance warnings that the Nation needs.

                       REAL-TIME HAZARDS FUNDING

    Mr. Dicks. It says here for the first--for the past few 
years the Survey supported the concept of a real-time hazards 
initiative. However, the 2001 budget request included an 
increase of only $7.1 million for this initiative. At this rate 
how long will it take to put a comprehensive program in place 
as envisioned by the committee and the Survey?
    Dr. Groat.  Far too long, Mr. Dicks. When you look at $170 
million and the $30 million a year for 5 years that the House 
Science Committee authorized, that is a realistic timeframe to 
get the technology in place. At $2.5 million a year, doing the 
math quickly, we are going to be many, many decades before we 
can put that in place and that is not quick enough.
    We already have too many people in harm's way. We have more 
people moving in every day because these areas that are exposed 
to natural hazards are also very attractive places to live. If 
we don't bring this capability, we are in serious danger of 
many losses of lives and property. We would like to see that 
move much quicker than our budget initiative proposes this 
year.
    Mr. Dicks. So if the committee could help you in this area, 
this is something that would be welcomed by you, right?
    Dr. Groat. It would be welcomed very warmly, yes, sir.

                  INVASIVE SPECIES IN WASHINGTON STATE

    Mr. Dicks. Let me ask you another one here. Examples of 
this--tell us what we are doing with gap analysis and invasive 
species programs? This has become a huge problem, invasive 
species as you know in the Great Lakes area and even out in my 
area, Puget Sound and Willapa Bay, a lot of it is coming from 
these foreign containerships that come in and these species are 
a huge problem. What can USGS do in this area?
    Dr. Groat.  It is very frightening when you look at the 
numbers of introduced species that have come into this country 
over the past few decades as global transportation has 
increased. Our ability to understand how they fit into the 
habitat, what kinds of habitats are susceptible to them and the 
impacts they have on native species is not growing as fast as 
the invasion is taking place. We frankly think we could do a 
lot more than we are being asked to do in invasive species 
because our job is to understand the landscape and the 
habitats. We do understand the distribution of native species 
and what conditions make that distribution take place. We would 
like to see more of our science brought to bear on that.

                  INVASIVE SPECIES LEAD FEDERAL AGENCY

    Mr. Dicks. Who has the lead? Fish and Wildlife Service, do 
they have the lead in the executive branch?
    Dr. Groat.  I think the Department of Agriculture would 
probably be the strongest lead in that area. Fish and Wildlife 
Service certainly has a significant interest in that program. 
Bureau of Land Management has a significant interest because of 
the range lands in the West. We have a very small internal 
effort as part of our program to deal with invasive species. We 
have a small increase in our budget this year.

                              GAP PROGRAM

    You also would need to know that the GAP program is a very 
successful program that is underway in every State to some 
degree and that does identify some of the critical habitat 
issues that relate not only to endangered species but relates 
to our understanding of those systems that are important. It is 
a very strong partnership program with the States, with fish 
and game agencies and with environmental agencies to catalogue 
inventory, put on maps and make available in a spatially 
referenced way that information.

                            SALMON RESEARCH

    Mr. Dicks. Tell me, your budget includes an additional $4 
million for work on the Columbia River related to salmon. 
Please describe the work and more broadly the role of the 
Survey in large river systems like the Columbia and the Snake 
River. I assume you are involved there, too.
    Dr. Groat. It was interesting to watch the salmon issue 
evolve and it evolved very quickly. Obviously it is the focal 
point, the lightning rod for interest in the Northwest. When 
you look at salmon, trout, and all the organisms that live in 
that ecosystem, we felt that we had available expertise to 
contribute to a very important regional issue in the Columbia 
and the Snake Rivers. That issue is how the system works 
biologically and hydrologically in terms of the water and the 
landscape. We are proposing an integrated study of the Columbia 
Basin which contributes to understanding not only the salmon 
but the whole ecosystem. We requested $4 million for a broad 
based comprehensive study rather than focus only on salmon or 
water quality or dam removal. We don't feel that is our role. 
We want to provide a much more comprehensive science background 
for that kind of decision making.
    Mr. Dicks. The National Marine Fisheries Service is talking 
about possibly getting even the National Academy of Sciences 
involved in this. Maybe there is some way you could be 
coordinated with them or brought into it with them, because I 
would like to see you all involved.

                      REAL-TIME HAZARDS INITIATIVE

    Just going back for one moment, as I understand it on your 
real-time hazards initiative, you are going to start on the 
West Coast and I think that makes sense because that is where 
you have got the earthquakes and volcanic potential. And I 
understand that the new--in the program for the State of 
Washington or Seattle, 20 seismometers are requested.
    Dr. Groat. That is correct.
    Mr. Dicks. When would that happen?
    Dr. Groat. That would start next fiscal year. We would 
start in the fall with obtaining and deploying those 
instruments. And Seattle and San Francisco and Los Angeles and 
Salt Lake City would be the focus of the program because those 
are the areas where the threat is the greatest.
    Mr. Dicks. Are we going to go another round, Mr. Chairman?
    Mr. Regula. Yes.
    Mr. Wamp.
    Mr. Wamp. I will kind of pick up where you left off on this 
GAP analysis before you got to salmon. He wore us out on salmon 
when we were up there last year, didn't he, Mr. Chairman?
    Mr. Dicks. I want you to know, Mr. Wamp, that there are 
some hatchery fish that you can catch and have for dinner. It 
is the wild salmon that we have to protect. You might have 
thought that there was some inconsistency.
    Mr. Wamp. After 5 days up there, I say if you all would 
quit eating so much of this fish, we wouldn't have this 
problem.
    Mr. Dicks. Last night we got you a steak.
    Mr. Wamp. It is this supply and demand thing, it is like 
this gas crisis. Just quit eating so much of that fish.
    Mr. Regula. You see why it is important that we travel.
    Mr. Dicks. We learn a lot.

                      SOUTHEASTERN WATER SUPPLIES

    Mr. Wamp. More than we care to learn.
    The livable communities initiative though, actually you do 
have an $8 million increase I think, which helps this GAP 
analysis for this national biological information 
infrastructure, which I support and I hope in a bipartisan way 
we support that because that is a step forward, but I am with 
you on invasive species. We have David Simmerlof in our part of 
the world in east Tennessee and we are struggling to try to 
find a way in east Tennessee and the Southeast to tie USGS in 
with private initiatives to address--and institutions like the 
Tennessee Valley Authority, University of Tennessee, and the 
Tennessee River Gorge Trust and the Tennessee Aquarium out of 
Chattanooga to try to tie this invasive species issue in with 
kind of a public-private partnership approach to the Southeast. 
We have a dozen real problems with our ecosystem in the 
Southeast, and I raise all that in support of what you are 
doing and let you know I am trying to help year to year find a 
way through this committee to address those problems.
    But the biggest problem is water. I was really blown away. 
Last month I went into a plant in one of my counties that 
touches the North Carolina line and Chairman Taylor, his 
district that joins mine there in the mountains of western 
North Carolina and eastern Tennessee, there is some pretty good 
water and we actually have one of these water bottling 
companies which net with natural spring water and I went there 
touring it thinking this is just another business that I am 
going to tour and I was kind of surprised that they sell 2 to 3 
million bottles a day out of this little plant in the middle of 
nowhere. And they have got, you know, half a dozen drills going 
way down into the ground and water is such an issue.
    Now, in the South, Atlanta has got a major problem so where 
I live to the north of Atlanta, they want our water and 
everybody knows it now. It is just kind of since the Olympics 
it has become an even bigger issue and a lot of their folks are 
moving up to our part of the world to get away from Atlanta but 
there is this big connection now on water. We are trying to tie 
this together. Last year we wrote some language in the bill 
asking you all on invasive species, and the year before we were 
looking at fresh water, water research.
    There is this group called the National Water Trust. It has 
kind of evolved into the National Water Center and it is a 
partnership between all these agencies I am talking about, TVA, 
University of Tennessee. We have got a graduate degree program 
now in Chattanooga in environmental engineering and they want 
to move more into water quality and environmental research. We 
are trying to find a way to make it work but USGS is key 
because you all are the water guys.
    So water supply, though, not just water quality and not 
just your mapping and your knowledge of the issue, but water 
supply, now we are having these regional roundtables in the 
Southeast trying to work together on what kind of a crisis we 
are going to have in 10 years when we really have some water 
supply problems.
    So we wrote language in the bill last year thinking that 
the bill might be signed in October that would require you all 
within 6 months to have a study back to us, but the bill didn't 
get signed till Thanksgiving so now you have till May 1, which 
kind of messes me up on my schedule of what to do in the coming 
year because your study is not going to be back until he needs 
to know what we are going to do next.
    So I need to know as soon as possible how USGS can work 
with the National Water Center in Chattanooga on both invasive 
species and this water supply issue for the Southeast United 
States because I am very interested in this. People in 
Chattanooga are very interested in this. We have done neat 
things in sustainability, the environment, turned our air 
quality around. We are beginning to turn our water quality 
around, but we really want to look at this sustainable issue on 
water supply for the Southeast and play an active role.
    There is a lot of private sector money that will come to 
the table if we can find a way to link through public-private 
partnerships on these issues of environmental responsibility 
and stewardship, particularly with water in Chattanooga. I will 
just tell you it happened with air quality. It happened with 
the Tennessee Aquarium and other initiatives like that.
    Do you have anything to update us on on southeastern water 
supplies or USGS's role? You all participated in all of our 
forums but I really haven't found a way to pull all of this 
together where we have a true public-private partnership.
    Dr. Groat. We are going to meet the May 1 deadline, Mr. 
Wamp, but if you need some advance warning we will try to 
provide that for you. I have to comment on the water supply 
situation. Who would have thought 20 years ago the Southeast 
would be worried about water or that Tampa Bay, Florida, would 
be considering a desalination plant with all the rain they get. 
Water is not only a western issue. It is a national issue and 
there is no part of the country in which water quality and 
quantity is not going to be an issue. And the need to 
understand the water budget is fundamental to solving those 
problems. We think that is a strong role that we can play and 
that is why streamgaging is critical. We talk about 
streamgaging in the context of floods but it is also how we 
measure the quantity and quality of the Nation's water. It is 
also why getting more capability and comprehensive programs in 
ground water is so important because that is a resource that is 
not understood very well in a broad regional sense and which 
has a tremendously important role to play.
    I think you can make no better investment, whether it is 
universities in Tennessee or the Federal Survey than in 
understanding water, water properties, water distribution as 
far as importance for the country. We see that as a very strong 
role for us whether it is regional planning in the Southeast or 
whether it is national scale databases and understandings of 
processes. It is critically important.

                     GEOGRAPHIC INFORMATION SYSTEMS

    Mr. Wamp. Geographic information systems, our State has 
made a request to me which the chairman will see here in the 
next couple of weeks for a State mapping initiative. Is that in 
conjunction with you all or do you know--it is called GIS. Can 
you explain what your role is there and where their role might 
be if the State is looking at an initiative for a statewide 
mapping service.
    Dr. Groat. Geographic information system approaches to 
assembling information about water, the land, resources, human 
occupation and different data layers so we can analyze them is 
really a critical part of understanding resource and 
environmental issues. We play a strong role in that. We have a 
large program within our organization in cooperation with State 
programs through the National States Geographic Information 
Council to provide them with information they need, provide 
them with capabilities that they find useful in developing 
geographic information systems.
    So with Tennessee and with other States, we work in that 
area. One of the kinds of partnerships that is in the livable 
communities part of our budget request is intended to work with 
States and with communities who have an interest in expanding 
their capabilities to develop geographic information systems. 
There we can truly partner with them and give them what they 
need to make that work. We do some work now and we are hoping 
we can do more in the future through the Community/Federal 
Information Program.
    Mr. Wamp. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Regula. I want to say your point on water in the 
Southeast is well taken. I visited the Chattahoochee. We put a 
lot of money in the bill to protect its riparian areas because 
I was amazed how dependent Atlanta is on the water in the 
Chattahoochee. Then they filter it through their plant, and 
everybody downstream is drinking it. I think that is a point 
well made.
    Mr. Kingston.

                        INTERAGENCY COORDINATION

    Mr. Kingston. Mr. Chairman, we enjoy Tennessee water and 
Tennessee whiskey equally. I notice they don't have any 
shortage of the whiskey up there. Maybe you better tell your 
bottling plant you could learn something. I don't know. We just 
have to keep our eyes on you guys.
    Mr. Chairman, I am sorry I am not wearing my frog tie 
today. It would be appropriate too. Let me thank you all for 
what you are doing on this amphibian research, and I appreciate 
working with your staff on it. It has been great.
    The question that I have in terms of coordinating with 
other agencies, it always seems and I am not sure that there is 
a problem at all but sometimes the government agencies, there 
is always a push for who is going to be the lead or who 
rightfully should be the lead. I think this committee 
recognizes you all as the lead agency. Do you feel you are 
comfortable in that position? Are things being coordinated?
    Dr. Groat. It is interesting when an issue crops up how 
many agencies feel they have a role and sometimes pursue 
independent ways of dealing with that. We think at least within 
the Department of the Interior that we are seen as a lead 
agency and we are working with BLM and others who have interest 
in and resources committed to amphibian issues. I think we are 
comfortable with the role and feel that we are in it.

                    SOUTHEAST RESEARCH ON AMPHIBIANS

    Mr. Kingston. If we can help on that aspect, let me know.
    Also, it is interesting to my knowledge at the moment you 
are not doing any real research in the Southeast on the 
disappearance. Am I wrong on that?
    Dr. Groat. In monitoring and inventorying, the only areas 
we are really not working are the Upper and Lower Mississippi 
and we have a request in the budget this year to cover that. 
Whether we are doing real site specific work on any part in the 
Southeast, Denny----
    Dr. Fenn. We have a network of monitoring systems put in 
place that include the Southeast--Great Smoky Mountains, 
Everglades and some other places--so we are covering that area.
    Dr. Groat. So the monitoring does include the Southeast.

                   AVIAN VACUOLAR MYELINOPATHY STUDY

    Mr. Kingston. Also on your bird study, the AVM, I will try 
to pronounce that, avian vacuolar myelinopathy.
    Dr. Groat. That is closer than I get.
    Mr. Kingston. Anything going on in the Southeast, on that 
coastal area particularly?
    Dr. Groat. There is work going on in Arkansas I know. Denny 
or Bob McLean--we actually happen to have with us Bob McLean, 
the director of our National Wildlife Health Center, who is 
probably the world's expert.
    Mr. Regula. Please to the table, and give your name and 
position so we have it for the record.
    Dr. McLean. Robert McLean. I am the Director of USGS 
National Wildlife Health Center in Madison, Wisconsin. We have 
been involved with this avian vacuolar myelinopathy since 1994. 
It first appeared in Arkansas and has now moved to the 
Southeast. We have a study currently in North Carolina and are 
working in South Carolina and Georgia. There is something that 
is killing bald eagles and water birds, so we are continuing to 
try to figure out the cause of this unknown etiology at this 
time.
    Mr. Kingston. Now that we both have been upstaged by 
somebody who can pronounce this thing: specifically Georgia 
Southern University, or Savannah State University, can you look 
into the possibility of getting them in the fold on that 
because a lot of coastal birds in our area represent the entire 
coast of Georgia. I just kind of like to know not necessarily 
just for Georgia but also South Carolina, Florida on that.
    Dr. McLean. We do work with the University of Georgia on 
this issue on a regular basis and I know many people at Georgia 
Southern, Dr. Oliver is a good friend and I have worked with 
him in the past. His group has done some bird work there. We 
work with Dr. Chandler as well.
    Mr. Kingston. Are you familiar with the Raptor Center that 
they have there?
    Dr. McLean. Yes, I am.

                          SALTWATER INTRUSION

    Mr. Kingston. That could help. Switching gears, on 
saltwater intrusion, have you all ever done anything on the 
Floridian aquifer in Georgia in terms of saltwater intrusion? 
It is always coming up. It goes back to what Mr. Wamp was 
talking about trying to look for sources of water.
    Dr. Groat. We do have studies underway of the Floridan 
aquifer right now, recognizing it is important to Georgia, 
South Carolina and Florida as well. This is one of the 
important ground-water systems that has relations to water 
supply, to surface water as well. So, yes, sir, we do.
    Mr. Kingston. Have you ever studied in the past the 
Savannah River, Savannah River Harbor? Fish and Wildlife and 
Corps of Engineers right now are in the process of looking at 
that. Are you all in that at all?
    Dr. Groat. Bob Hirsch, do you want to comment on that?
    Dr. Hirsch. I am Robert Hirsch, Chief Hydrologist at USGS. 
I was just in Georgia last week and was briefed on our 
participation in the sound science initiative for the coastal 
area. In cooperation with the State we are doing about $800,000 
worth per year of studies relating to the Florida aquifer, some 
of the overlying aquifers, the saltwater intrusion running the 
entire coastline and actually up into South Carolina as well. 
Very active program dealing with that issue in conjunction with 
the State environmental agency.
    Mr. Kingston. As you know, it is a very volatile issue 
right now. Thank you very much.
    Thank you, Mr. Chairman.

                       COOPERATIVE RESEARCH UNITS

    Mr. Regula. I have reviewed the budget for the National 
Park Service's, Biological Research Management Division for 
next fiscal year, and they are proposing to establish a number 
of new Cooperative Ecosystem Study Units at various 
universities. Can you explain how these units would be 
different from the co-op research units that you operate and we 
fund in your budget? Or is this a duplication of effort?
    Dr. Groat. I don't think it is a duplication, Mr. Regula. 
We fund--through universities--the Fish and Wildlife 
Cooperative Research Units. The program that you referred to is 
not only the National Park Service, but the expectation is that 
other Federal agencies will provide funding and scientific 
expertise to deal with issues beyond fish and wildlife. We are 
a participant in that program and we don't really see it as a 
buildup of duplicative scientific expertise in the National 
Park Service. Rather it is them providing resources to allow 
that expertise to be applied to other things they are concerned 
about. So at least up to this point, we have been a participant 
and are comfortable with it.

                         USGS PRESENCE IN OHIO

    Mr. Regula. Do you have an office in Ohio?
    Dr. Groat. Yes, we have water offices in Ohio.
    Mr. Regula. I was just curious because many of the 
activities like earthquakes and other hazards are in other 
States.
    Mr. Dicks.

                            Invasive species

    Mr. Dicks. Go back to invasive species again. Tell me again 
what you guys do on invasive species.
    Dr. Groat. Well, we do things that are related to specific 
species. We do things that are in support of the land 
management and resource management bureaus within the 
Department of the Interior. It is one of the great mysteries to 
me, Mr. Dicks, when the President signs an executive order, 
when 48 Senators sign a letter saying how important invasive 
species are to this country, that when you look at the net 
impact of that on budgets of organizations that deal with the 
issue, it is very small.
    Mr. Dicks. How much is in your budget for invasive species?
    Dr. Groat. There is a $2 million increase in our budget.
    Mr. Dicks. How much existing money?
    Dr. Fenn. Thank you. Denny Fenn, the Chief Biologist for 
the USGS. I think we have something in the order of about $5 
million currently being spent. The kind of things that we are 
doing in the area are in some cases mapping and defining the 
extent of the problem. In other cases, it is working on 
biological control methodologies for controlling invasive 
species that are already established or other kinds of methods 
for control and working with the agencies to try to help them 
solve the problem. And in other cases, it is expending some 
effort to try to provide some national leadership to bring all 
the groups together in scientific colloquia and symposiums to 
deal with the issues. We were recently involved in an 
international program in South Africa on some common problems 
between the nations, for example, with invasives.

                   INVASIVE SPECIES INTERAGENCY GROUP

    Mr. Dicks. You mentioned the Agriculture Department. They 
take the lead? Is there an interagency group on invasive 
species?
    Dr. Fenn. There is.
    Mr. Dicks. Who chairs that?
    Mr. Fenn. It is co-chaired by the Secretary of Agriculture, 
Secretary of Interior and Jim Baker from the Department of 
Commerce. So it is at the highest levels in the three 
Departments. Agriculture has the lead in terms of trying to 
protect the country from new invasives moving in and they have 
a very large biological control research effort for 
agricultural pests, whereas the Department of the Interior is 
more concerned about it from an ecosystem and wild lands 
perspective.
    One correction I would say is that in this budget, there is 
in the DOI Science Priorities initiative, the $13 million 
includes about $2 million in it for invasive species. It is not 
a specific line item but it is contained within----

                        INVASIVE SPECIES FUNDING

    Mr. Dicks. That is in the Interior Department?
    Dr. Fenn. In the DOI Science Priority initiative of the 
USGS budget.
    Mr. Dicks. $7 million?
    Dr. Fenn. There is an increase of about $2 million added to 
the $5 million we are currently spending.
    Mr. Dicks. So that is $7 million total. So that is a total 
within the USGS, $7 million--BLM, Parks, Interior, other 
agencies have funds for invasive species as well?
    Dr. Fenn. For direct management of invasive species on 
their lands.
    Dr. Groat. Through our science support, they indicate to us 
their science support needs, they ask us to request monies for 
the science of invasive species and, as Denny indicated, we are 
requesting that. In addition they have their own monies for 
management of the invasive species themselves.

                FEDERAL STRATEGIES FOR INVASIVE SPECIES

    Mr. Dicks. Can you--that is what I wanted to get to is this 
control. What are we doing to try to deal with these problems? 
I understand the science, which is crucial. You have got to 
know how to deal with them but does the administration have a 
strategy for how we deal with these invasive species?
    Dr. Fenn. I think they do. I think that is part of the 
reason this new invasive species Council has been put together 
is to try to coordinate across the three departments with the 
major problems and solutions. An example I will give you just 
to describe the kind of things that are going on is sea lamprey 
control in the Great Lakes.

                          SEA LAMPREY CONTROL

    Mr. Dicks. What is it called again?
    Dr. Groat. Sea lamprey control. It is a kind of an eel like 
organism that attaches itself onto the side of lake trout and 
salmon and lives off the body juices of those fish. It slowly 
kills those fish and it has knocked the population of lake 
trout in the Great Lakes very low in the last 50 years. What 
USGS has done is to do some research on lampricides, chemicals 
that can be used to treat and kill these lamprey--attack them 
at their breeding locations in the confined streams around the 
Great Lakes, lowering the population of sea lampreys so the 
Fish and Wildlife Service and various agencies managing those 
animals can recover the lake trout.
    That is an example of the kind of things that are being 
done now.

                       HARBOR SEALS AT HOOD CANAL

    Mr. Dicks. I notice you also have a program on Hood Canal, 
a place dear to my heart, regarding harbor seals. Are you aware 
of that?
    Dr. Fenn. Yes.
    Mr. Dicks. Which I think is a good idea. Because we are 
talking about endangered species, Chinook and chum, that are 
both listed on Hood Canal and to take a look at the increasing 
number of harbor seals that are feeding on imperiled runs of 
chum and Chinook and salmon in Hood Canal, a large natural 
inlet.
    Dr. Fenn. You have a situation there where you have 
relatively small populations where there used to be huge 
numbers and the seals have found out where the choke points 
are, where the narrow passages are and they are concentrating 
there, making it easier for them to capture these fish and 
taking huge proportions of them, lowering the population even 
further. What they are trying to do is keep that in balance. 
They are natural predators preying on their natural species but 
unfortunately salmon are in too small numbers to support that. 
That is what that effort is about.
    Mr. Dicks. I applaud these efforts and I think much of what 
you are doing is good. I just wish we could have a more 
aggressive approach. I don't blame that on you. I know it is 
because of budgetary pressures.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Peterson.

                    ZEBRA MUSSELS IN THE GREAT LAKES

    Mr. Peterson. If we could go back to the invasive species. 
Maybe your partner shouldn't have left. How involved are you in 
the zebra mussel issue in the Great Lakes and tributaries?
    Dr. Fenn. Zebra mussels, I think we have two or three of 
our centers, the Great Lakes Science Center and our Upper 
Mississippi Ecological Science Center in Wisconsin that are 
deeply involved in monitoring the spread of that species and in 
working on control methodologies that might help reduce the 
spread and the numbers of those animals that are causing so 
many problems up and down the Great Lakes. So we are spending, 
I don't know what the exact number is, but a fairly sizable 
chunk of money in both of those centers attacking the zebra 
mussels issue.
    Mr. Peterson. Do we have some light at the end of the 
tunnel?
    Dr. Fenn. It is a tough issue. The animal has some very 
fascinating ways of spreading itself and ways of reproducing 
rapidly so it is really a challenging problem at this point. We 
don't have any clear definitive ways of knocking it back. We 
haven't given up yet.
    Dr. Groat. Maybe the light at the end of the tunnel is the 
water is a lot clearer than it used to be.
    Mr. Peterson. They do serve a purpose but they are a 
problem. They are a purifier, right?
    Dr. Fenn. They are a filter feeder so they take a lot of 
the natural plant organisms out of the water, if you will, as 
they filter through it.

                        GREAT LAKES RESTORATION

    Mr. Peterson. Could you quickly explain your overall 
involvement in the Great Lakes and restoration of them and what 
role you play and who you partner with?
    Dr. Groat. One of our new initiatives this year in our 
place-based studies program is to bring together more of the 
partners in the Great Lakes that are interested and to focus on 
one area where we could get a good start and that is Lake 
Michigan and Lake Michigan Basin. That would be an 
interdivisional effort within the USGS and interagency effort 
with State and local agencies.
    Denny mentioned the Great Lakes Science Center which works 
there. We also have a very strong coalition of Great Lakes 
States interested in geological mapping and they have formed a 
very innovative approach to three dimensional mapping that is 
applicable to not only geology but ground water, waste disposal 
and resources for the whole Great Lakes area, all the area that 
was covered by the glaciers. That is a very active, aggressive 
group that we have a strong partnership with.
    I think our interest as well is the traditional water 
stations, monitoring stations. We have done studies on Great 
Lakes erosion. Remember a few years ago when the lake levels 
were so high and people were concerned and now we have the 
opposite problem. Lake levels are so low. Our coastal group has 
been working on water-level effects in the Great Lakes area. I 
think as our work in the Great Lakes expands, all of our 
divisions' efforts will grow as will cooperation with agencies 
from the regions who have concerns.

                      GREAT LAKES SCIENCE FUNDING

    Mr. Peterson. There has been huge progress made in the 
Great Lakes. I don't think enough people know about it. Are 
there any initiatives we ought to be funding? Is there anything 
we ought to be doing that could make us move forward quicker?
    Dr. Groat. One of the needs that has been identified in the 
Great Lakes is to apply a technology that has been extremely 
successful off the Pacific coast at Los Angeles and in Lake 
Tahoe and that is to map the bottom of the lake in great 
detail. You can see topographic features, sediment patterns and 
if we are interested in those things that live in the Great 
Lakes, whether they are commercial fisheries or sport 
fisheries, understanding the bottom habitat is an extremely 
important part. This tool is a wonderful tool. We have had 
fisheries people being among the strongest advocates for 
applying that tool. We have looked at it. I couldn't give you 
any cost numbers right now, but we could for the record.
    [The information follows:]
    Folios 70 Insert here

<SKIP PAGES = 001>

    Mr. Dicks. Would the gentleman yield.
    Mr. Peterson. Sure.

                        Side-Scan Sonar mapping

    Mr. Dicks. What do you call this?
    Dr. Groat. It is a digital bathymetry program. It is side-
scan sonar--instruments that send signals which bounce back 
from the bottom. We record those and it provides a very fine-
grain detailed map of the bottom. We can provide you some 
examples from the West Coast and Lake Tahoe that would be very 
striking.
    Mr. Regula. Let me interrupt. There is a vote on the rule 
for the property rights bill. I had planned to reconvene 
because I have some additional questions but, Mr. Moran, I 
don't know if you want to come back or would you like to get 
yours in now.
    Mr. Moran. I would appreciate that, Mr. Chairman.
    Mr. Peterson. Could I make one final comment. I think the 
chairman and I both have a special interest in Lake Erie.
    Dr. Groat. I grew up on Lake Erie, so I do too.
    Mr. Moran. This also is a special day, as the chairman 
knows. That lunch with the Irish ambassador is a no miss----
    Mr. Regula. I didn't get invited to that one.

                        Chesapeake Bay Watershed

    Mr. Moran. Consider yourself blessed.
    This subcommittee has been appropriately and consistently 
supportive of what you have been doing, and I particularly like 
the local communities initiative, the sustainable resources for 
the future. It is all exciting, and I think it is all 
constructive. I look forward to following the GIS system as you 
develop this system that John and the chairman have been 
talking about. It is going to be very helpful to far more 
communities around the country.
    I would just like you to address specifically and briefly 
the Chesapeake Bay watershed. We have got some serious concerns 
that have been raised. I don't know how valid they are, but 
with all the development going on, particularly in the 
Washington Metropolitan Area, we are losing our trees, thus we 
see a lot of erosion. It affects our watershed and I would like 
to get your view on how important this is and what the trend is 
from the GIS surveys.
    Dr. Groat. I think it is extremely important not only for 
the Chesapeake itself but for understanding how those key 
coastal systems that are impacted by people respond. The more 
work we do, more impacts we see. We wouldn't have known a few 
years ago that ground water or the atmosphere are significant 
contributors to nitrogen loads. Or how important agricultural 
practices are in providing nutrients to the system. Perhaps 
more importantly, we were not aware of how much long range 
planning is needed to deal with these impacts. There aren't any 
instant fixes and if the science is truly going to guide the 
fixes, then there needs to be the time allowed and the 
management strategies developed.
    So the Chesapeake is probably the best organized example in 
the country of science agencies and regulatory agencies working 
together both on the science and the management in conjunction 
with State and local areas. So I think it is extremely 
important for itself because of where it is. I think it is also 
extremely important as a laboratory for how we deal with this 
in the Pacific Northwest or wherever we happen to be. We are 
putting a lot of effort into it and hope to keep that level of 
effort at least as high as it is now.
    Mr. Moran. Very good. Norm was showing me you do have some 
written material here about it as well. I will have to get out 
and see what you are doing.
    Dr. Groat. I would be pleased to show you around.
    Mr. Moran. Dr. Groat, thank you. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. We are going to suspend here while 
we vote and then I know Mr. Dicks has some additional questions 
as do I, so we will be back.
    [Recess.]

                          USGS Reorganization

    Mr. Regula. I am aware that you are reorganizing the 
Survey, shifting responsibilities to regional directors away 
from divisions. Do you think this will be effective in 
maintaining your focus on national, long-term concerns of the 
Survey?
    Dr. Groat. I think it will, Mr. Regula. Rather than 
shifting away, we are really trying to bring more balance to 
our programs. Whether they be applied in the regions or 
nationally they have tended to be largely structured and 
controlled through Reston and through our headquarters. The 
effort here is to give those programs that are focused in the 
regions where our scientists are--where our scientists in the 
regions are doing their work and interacting with the people 
who use the science--more regional control. We don't intend to 
take our national programs like seismic monitoring, 
streamgaging programs and so forth and regionalize those. Those 
will remain as nationally guided, nationally instructed 
programs. We are just trying to get our science closer to the 
people who use the science and have them have a more direct 
role in the regions, designing programs that suit the regions. 
So they are all important and we are not diminishing one but we 
are expanding the other.

                  Cooperation Between USGS and States

    Mr. Regula. Do you have a lot of interaction with the 
States?
    Dr. Groat. We do on many fronts. I don't think you could 
find any one of our programs in our disciplines in our regions 
that aren't in some way cooperating with State agencies, 
whether they be mapping agencies or mapping programs, water 
programs, environmental programs. State interactions are a very 
strong part of our program and an increasingly important one.

                      UNCONTROLLABLE COST OFFSETS

    Mr. Regula. The Survey seems to be the only bureau that had 
to fully offset its uncontrollable cost increases with program 
decreases. Doesn't this policy defeat the reason for funding 
uncontrollables?
    Dr. Groat. Well, that has been a difficult challenge for 
us. Having to cut programs to cover uncontrollable costs is 
painful to the programs. It is painful to the bureau as it goes 
through the process of deciding what to cut and what not to 
cut. As far as how we are treated in that area related to other 
bureaus--other bureaus within the Department of the Interior, 
we have asked some questions as well. I don't know whether John 
Trezise wants to comment on that or not, but we are discussing 
it. Let me put it that way.
    Mr. Regula. Let me say we are sympathetic too.
    Dr. Groat. Thank you. We would like to see a more direct 
approach to funding uncontrollables.

                   Coastal and Marine Geology Program

    Mr. Regula. We have a high regard for your work and that 
may be reflected in our markup.
    The committee has a long history of supporting the coastal 
and marine geology program. The budget this year proposes 
significant reductions and redirections of the core program. In 
many instances coastal issues need a better understanding by 
members. It appears that your budget would not treat this as a 
high priority. Maybe I am just not getting the thrust of what 
you are doing?
    Dr. Groat. Our budget this year does include a half million 
decrease in the pilot program in Kitsap County in Washington, 
which we actually concluded. It also includes a half million 
dollar increase in the Columbia River area for some of the 
coastal work there, so it really comes out as a net even as far 
as program monies, and then we do have the uncontrollable costs 
added. I guess my answer would be watch us in 2002. We 
recognize that coastal issues, whether it be the oceans or the 
lakes, are of increasing importance to the country and we have 
a wonderful ability with our integrated programs to deal with 
issues there.
    So we are contemplating and testing on our partners and our 
clients a much more aggressive and comprehensive coastal 
program in 2002. So I think you will see more light there.

                    Mapping and Digitizing Schedule

    Mr. Regula. Does this year's budget keep you on schedule 
for mapping and digitizing?
    Dr. Groat. Well, my honest answer is, yes, it does, but the 
sad part of the answer is it is a very, very slow rate and at 
the rate we are going now, it will take us 40 to 50 years to do 
the updating that we need. If we were to be very aggressive in 
updating maps and orthophotos--orthophoto based maps--digital 
databases, it would cost more on the order of $20 to $25 
million a year to keep those constant. Yes, we are on schedule 
but the schedule is not nearly as aggressive as it needs to be.

                          Maintenance Backlog

    Mr. Regula. I note that you have a maintenance backlog, and 
I think that in prior testimony the total is about $140 
million, but you only have $2 million to address this issue. As 
you know, we have placed emphasis on all the agencies on 
backlog. Would you want to comment? That amount doesn't seem 
like it is going to get you there.
    Dr. Groat. It is not a big dent at all. We felt we made 
some progress last year when we were able to get some funding 
in there but relative to the need, it is very small and we 
haven't completely solved the puzzle yet as to how to give it 
higher priority and move it along quicker than we are now. We 
would agree with the subcommittee that it is an important 
priority.
    Mr. Regula. Does it mean this backlog has any critical 
dimensions? Would we be able to meet really serious critical 
problems with the $2 million, or do you need some more there, 
you know, fixing a roof, for example. Leaks can be destructive 
or heating systems, all sorts of things.
    Dr. Groat. We have prioritized based on health and safety 
first and then on need in general second. So monies we have do 
go to those high priorities but it is not going to fix the 
leaky roofs and out of date plumbing systems in all the places 
that need it. So help there would be appreciated.

                       USGS and FWS Relationship

    Mr. Regula. When Jamie Clark, Director of the U.S. Fish and 
Wildlife Service, testified before our committee recently, she 
described the relationship between her agency and USGS 
Biological Resources Division as challenging. Is that an 
accurate description?
    Dr. Groat. Well, I guess any family relationship is 
challenging. I find it only to be challenging in the amount of 
resources available for the work. Whether the biologic group is 
within the bureaus of the department or whether they are with 
us, there is never enough money to do all the work. That 
funding challenge is one that we would all like to see a 
solution to. I think the relationship of our scientists to 
their scientists, our receptiveness to listening to their needs 
and trying to meet them is very high. The folks are still in 
the same place. They haven't gone anywhere. They are still 
fulfilling the same mission. So I think it is a good 
relationship.
    I think the positioning of the biologists and the people 
that serve them in the USGS is working well. I think the only 
significant challenge is dollars and we are doing everything we 
can to make it work. I think it is working.

                      Future Biological Directions

    Mr. Regula. What do you see as the future directions of the 
Biological Resources Division?
    Dr. Groat. I think they have proven their ability to do 
science in response to real needs in support of the DOI science 
bureaus and that is their first order of responsibility. I 
think being housed in the USGS, provides other opportunities to 
provide that life dimension to all the critical systems 
important to this country. I think we will see that without 
diminishing their support of Interior bureaus, they are their 
playing more and more of a strong role in many of the issues 
you have raised around the table here today. Whether it is in 
coast or watersheds or water supply, the biologic dimensions 
are going to be applied increasingly.

                             USGS Botanists

    Mr. Regula. It makes me recall, I think we had a garden 
club member testify a year or two ago that we don't have enough 
botanists in government. Do you have botanists on your staff?
    Dr. Groat. I saw the number, and Denny might remember--20 
or so--that we do have several botanists and of course botary 
is an important part of natural landscapes in general, and in 
dealing with invasive species. We think we have a good mix of 
the right kinds of biologists.

                          Great Lakes mapping

    Mr. Regula. Great Lakes mapping. The budget for this year 
included funding. What is the status of this project?
    Dr. Groat. The $0.5 million, I believe it is that we have 
requested for Great Lakes, is to start the place-based study 
there.
    Mr. Regula. The mapping you just discussed a while back, 
the mapping at the bottom of bodies of water, or is this a 
different type of mapping?
    Dr. Groat. This is more of an integrated program focusing 
on Lake Michigan. It includes some mapping components but it 
has biology and geology as well. The kind of mapping that I 
talked about for the bottom of the Great Lakes isn't really 
underway right now. There has been some planning but it isn't 
being implemented right now.
    Mr. Regula. Maybe we ought to do a pilot project on Lake 
Erie.
    Dr. Groat. I would agree with that. Seriously that would be 
an excellent place to do it. Lake Erie is a relatively shallow 
lake. The habitats are critical.
    Mr. Regula. It is not too huge, but yet it is probably 
surrounded by pretty much of a cross-section of the kind of 
activities focused on a lake of that size.
    Dr. Groat. Our mapping people would welcome an opportunity 
to do a pilot on the Great Lakes. We think it would show great 
things.
    Mr. Regula. How much would that cost? Do you have any idea?
    Dr. Groat. I will find that out for you, Mr. Regula.
    [The information follows:]
    Offset Folio 81 Insert here

<SKIP PAGES = 001>

                           Ohio Pilot Project

    Mr. Regula. What is the status of the Gateway to the Earth/
Ohio pilot project?
    Dr. Groat. We learned a lot from the Ohio pilot project. 
The real key for an organization like us that has huge chunks 
of data, whether it is in map form or other form, is getting it 
to customers and people who use it. This is what we learned in 
Ohio. While maintaining that we are trying to expand that work, 
the $2 million we have for increasing our computer 
infrastructure is based on what we learned in Ohio so that we 
can get our equipment upgraded to move that information out 
into the real world.

                         Long Distance Learning

    Mr. Regula. Do you get involved in long distance learning 
whereby a geology class at a university could interact with 
people in Reston in your headquarters?
    Dr. Groat. That is an interesting question. We have the 
capability for people using our facilities for long distance 
conferencing and for others to communicate with us. I am not 
aware that we have actually had long distance classroom 
participation in our programs, but it certainly could help.
    Mr. Regula. From what I have seen out there, it seems you 
have resources that would be very valuable to classes, science 
classes at a high school level as well as at the college level 
in the various disciplines. Maybe it is something you ought to 
think about because it is a coming thing.
    Dr. Groat. No question.
    Mr. Regula. The Smithsonian, for example, had a class out 
in Canton, Ohio, that was having like a classroom experience 
with a person at the Smithsonian, and the potential is 
enormous.
    Dr. Groat. It is. In fact, we do many things in the 
educational area. Many of our websites have programs designed 
specifically for different grade levels in the schools and they 
make great use of it. We have a teacher's packet, for example, 
that we give out. Student contact with our scientists using 
those kinds of communication technologies are really things of 
the future. In fact, our whole ability as a widely disbursed 
organization to communicate with each other to do classes and 
training rather than pulling all the people together in one 
place can use those very same facilities. The education of 
people outside the Survey with those inside can go hand in hand 
in using the same technology.

                         Fire Detection Efforts

    Mr. Regula. I think the whole communications area is huge.
    Last question. You are developing technology to detect 
fires; i.e., heat seeking technology, determining heat as to 
the source. Would this be useful to the Forest Service?
    Dr. Groat. Yes, we have a remarkable program in cooperation 
with the intelligence community and a facility that allows us 
to use some magnificent technologies. One of the great 
applications that we have been able to develop is to be able to 
sense and see very small fires with a very high degree of 
accuracy. We have tested it and we have also been out talking 
to various States about their ability to use this and also with 
the Federal firefighting community. The real challenge that is 
left is not the technology itself which is, as you saw, very 
well proven, but getting that into the workplace. They have 
systems they use now, the fire towers, the traditional ways. 
Being able to provide our kind of information to them either 
over the Internet or through satellite communication is where 
we need to go next. That is our next big challenge.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Under biological research and monitoring plan 
areas, you spend quite a bit of money, don't you?
    Dr. Groat. Yes, sir, we do.

                     Endangered and At Risk Species

    Mr. Dicks. $113 million. Tell me about what you do on 
endangered and at risk species.
    Dr. Groat. Our role there is really to provide the 
information that understands the distribution, the ecology, the 
stresses that are put on various species whether they are 
threatened, endangered or whether they are part of the general 
population. So we lead towards understanding and we try to 
provide the scientific information that determines what the 
stresses are and then also to support the plans, the habitat 
conservation plans that are put in place to recreate the 
habitats that make them viable. And that is the approach we are 
really taking in the Pacific Northwest is understand the 
habitat so that you can deal with the issues.
    Mr. Dicks. And you do get into ecosystem analysis too.
    Dr. Groat. Yes, sir, we do. We try to apply a systematic 
approach to understanding critical ecosystems--the Mojave 
Desert, the work Mr. Regula referred to in the Everglades--
those are all part of the ecosystem effort that we have.
    Mr. Dicks. And you did play a role in the Pacific Northwest 
forest plan?
    Dr. Groat. Yes, we did. We didn't have the lead but we 
provided some science support there. We have a laboratory in 
Oregon that was an active participant.

               Information To Local and State Governments

    Mr. Dicks. How do you get the information to the local and 
State governments? For example, right now we have a listing of 
these salmon and each of the communities is developing a rule 
underneath the 4(d) rule to come into compliance so that they 
are not hit on take. Do you have a way of communicating with 
the local communities on this stuff?
    Dr. Groat. We have a way that is very general right now. 
One of the things we would hope for with the partnerships that 
we are proposing is that those communities that have a need for 
specific types of information could receive funding to work 
with us so that we provide exactly what they need. Right now 
much of the information they might need is there but they have 
to find a way to make it useful. This way we would fund a 
partnership to work with them to do that. The answer is that we 
are doing some but could do more if we had that kind of program 
in place.
    Mr. Dicks. That is all I have, Mr. Chairman.
    Thank you.

                       PARTNERSHIPS WITH COLLEGES

    Mr. Regula. Just a couple of questions. You have 
partnerships with colleges. I think I was in Los Angeles or 
somewhere in California where the earthquake system was such 
that the county government, the city government, the State 
government all were tied together for information purposes.
    Dr. Groat. We do. We have many partnerships with colleges 
ranging from our cooperative research units in the biological 
area to cooperative research arrangements, particularly on the 
West Coast in earthquakes, with Cal Tech and a whole bunch of 
schools there. They provide some of the science that underpins 
and supports the science we are doing and actually operate, 
help operate, some of the seismic monitoring networks that are 
there.
    Mr. Regula. Do you have similar facilities in Seattle and 
the State of Washington?
    Dr. Groat. We do have cooperative arrangements with 
University of Washington and Washington State for programs, 
both biological and physical.

                           Volunteer Program

    Mr. Regula. Do you use any volunteers? I am just curious 
because that is a very strong feature of parks and forests? Do 
you use any in your programs?
    Dr. Groat. We do. We use lots of volunteers. We have folks 
we can't get rid of frankly who want to help. They volunteer 
and they provide science and provide other services. We have 
people who just have an interest in the things we do that serve 
as docents and participate in programs. So both at the center 
levels right up to the headquarters level we make extensive use 
of volunteers.

                      Visitors To USGS Facilities

    Mr. Regula. Do you get visitors at any of your facilities? 
I am not speaking of Reston but throughout the country.
    Dr. Groat. We do. At the regional level we hold large open 
houses at our regional centers and attract thousands and 
thousands of people. This year the big open house is being held 
at Menlo Park. We figure we will have 20,000 people show up 
there. We make a very extensive effort to showcase our programs 
and to showcase them in a way that is meaningful to the general 
public. Many of our centers and laboratories do the same thing 
on an individual basis.

                       USGS Public Communication

    Mr. Regula. Do you and your staff people get invited to go 
to the Rotary, the Kiwanis and the Chamber of Commerce to tell 
your story in these communities?
    Dr. Groat. They do. One of the reasons for the 
reorganization and the regionalization related to this. One of 
the important aspects of balancing the regions with the 
headquarters is to empower and encourage those people that are 
out there in the regions to talk to anybody who will listen 
because if we are going to be better known, then we have got to 
be aggressive about it. So for Rotary Clubs, garden clubs, 
schools, citizens groups of all kinds, we think we have 
something interesting to tell them and they generally find that 
to be the case.

                             Basic Research

    Mr. Regula. Basic research. Will the reorganization 
strengthen it or at least maintain it as you have done it 
historically?
    Dr. Groat. We hope it is going to strengthen it. We define 
basic research as the research that provides the understandings 
of those systems and processes that we want to make useful to 
people. If we ever leave the basic research function, we are 
going to cut off the seed corn that makes our programs work. We 
hope that by expanding our programs, by expanding the 
appreciation for the need for the science, we will be able to 
attract more resources and more interest in doing the science 
itself. So the basic research function, the fundamental 
research function, needs to remain strong and needs to grow and 
needs to be relevant. As we replace people who retire, as we 
add to the work force, we need to be sure we are hiring the 
types of scientists that meet the needs of the future, not the 
needs of the past. That is an important part of our planning 
effort.

                        Visits To USGS Web Sites

    Mr. Regula. Do you get a lot of hits on your web site?
    Dr. Groat. We certainly do. We have an arrangement with 
Microsoft for the TerraServer where we get 5 or 6 million hits 
or so a day. These are people all over the country who are 
interested in geographical information about where they are 
located, their houses and maps. Many of our websites get 
thousands and thousands of hits a day from all kinds of people.
    Mr. Regula. So you have several websites?
    Dr. Groat. We have one website that has hot links to many, 
many subsites and subsets so people can come into that central 
site and get access to all of them. The TerraServer is a 
separate entity.

                           Information Access

    Mr. Regula. If someone were thinking about buying a piece 
of property, could they get information about the potential of 
that particular piece of property for, say, earthquake hazards, 
flooding or some of the other things that you cover?
    Dr. Groat. That is really the significant major objective 
of our Gateway to the Earth program. We want a citizen to be 
able to put their finger on a point on the map and access it 
and say I want to know everything I can about this area. Or 
they want to know whether it is safe for my house, whether the 
geology is stable, whether it is landslide or hazard potential, 
whether if I drill a well, I am likely to find water.
    Mr. Regula. Can you get that information?
    Dr. Groat. That information is all there now but it is not 
accessible in any easy sort of way. It is back to the question 
asked about the communities. How do we make it easy for a 
person who is not a scientist, not a technical person to get at 
our data, and that is what Gateway to the Earth and Community/
Federal Informaiton Partnerships programs are intended to do, 
to facilitate their access. We think if we can do that we are 
going to serve a larger, greatly increased number of people 
more meaningfully than we are now.
    Mr. Regula. I would think planning commissions, zoning 
commissions, developers would certainly use your information.
    Dr. Groat. They do. They use it extensively now. We just 
feel we have got 120 years worth of understanding of the Earth 
that we could make available to people and we need to organize 
it better and work with those communities to make sure it is in 
a form that they can use it. That is the major objective.
    Mr. Regula. Mr. Dicks, you have anything further?
    Mr. Dicks. No, I don't, Mr. Chairman. But we do appreciate 
the work you are doing and we hope you will keep us informed 
especially on this earthquake hazards issue. I think that is 
very important.
    Dr. Groat. We would agree.
    Mr. Regula. Thank you. I think this has been a very good 
hearing. Your testimony has been effective, and we all learn 
new things every day. We will try to be sensitive to your needs 
and a lot of what we are able to do will be determined by what 
kind of an allocation we have. We recognize the value of what 
USGS does on behalf of the American people.
    So thank you for coming, and with that the committee is 
adjourned.
    Dr. Groat. I thank you, Mr. Regula, and the subcommittee 
for being interested and supportive.
    [Additional questions for the record follow:]
     Offset Folios 92 to 121 Insert here

<SKIP PAGES = 030>

     Offset Folios 122 Insert here

<SKIP PAGES = 001>

     Offset Folios 123 to 129 Insert here

<SKIP PAGES = 007>

     Offset Folios 130 Insert here

<SKIP PAGES = 001>

     Offset Folios 131 to 168 Insert here

<SKIP PAGES = 038>

     Offset Folios 169 Insert here

<SKIP PAGES = 001>

                                          Wednesday, March 8, 2000.

  BUREAU OF INDIAN AFFAIRS AND OFFICE OF SPECIAL TRUSTEE FOR AMERICAN 
                                INDIANS

                               WITNESSES

ROYCE HANSON, NAPA FELLOW AND PANEL CHAIR, NATIONAL ACADEMY OF PUBLIC 
    ADMINISTRATION
CAROL E. NEVES, STUDY DIRECTOR, NATIONAL ACADEMY OF PUBLIC 
    ADMINISTRATION
KEVIN GOVER, ASSISTANT SECRETARY FOR INDIAN AFFAIRS
THOMAS M. THOMPSON, PRINCIPAL DEPUTY SPECIAL TRUSTEE FOR AMERICAN 
    INDIANS
HILDA A. MANUEL, DEPUTY COMMISSIONER OF INDIAN AFFAIRS
JOE CHRISTIE, ACTING DIRECTOR, OFFICE OF INDIAN EDUCATION PROGRAMS, 
    BUREAU OF INDIAN AFFAIRS
DAVID A. GILBERT, BUDGET OFFICER, OFFICE OF SPECIAL TRUSTEE
THEODORE R. QUASULA, DIRECTOR, OFFICE OF LAW ENFORCEMENT SERVICES, 
    BUREAU OF INDIAN AFFAIRS

                            Opening Remarks

    Mr. Regula. We have a lot of ground to cover this morning 
and I think it will be interesting to hear some of the 
challenges we have. We will start out with the National Academy 
of Public Administration, Mr. Hanson, then Mr. Gover, and then 
the new trustee.
    Mr. Hanson, we look forward to your testimony.
    Mr. Hanson. Thank you, Mr. Chairman.
    I am joined by Carole Neves, who is the study director at 
the Academy for this project.
    I want to thank you for the opportunity to present the 
findings and recommendations of the report of the National 
Academy of Public Administration on management and 
administration of the Bureau of Indian Affairs. The full text 
of our testimony has been given to you, so I am only going to 
highlight some of the important findings and recommendations.
    Basically, the Academy study found that the management and 
administration of the BIA and the Office of the Assistant 
Secretary of Indian Affairs are not adequately organized and 
staffed to carry out effectively their various trust and 
program responsibilities or to operate an effective and 
efficient agency.
    Specifically, there is no existing capability to provide 
budget, human resources, policy, and other management 
assistance to the Assistant Secretary and to the Bureau. The 
staff do not receive adequate management and administrative 
training. The BIA does not have adequate standards to determine 
its staffing and other administrative and resource 
requirements. The strategic planning, annual performance 
planning, and program analysis are not institutionalized. And 
important manuals and other administrative handbooks are out of 
date.
    The panel made specific recommendations to deal with each 
of these problems and I will emphasize here only the most basic 
of those recommendations.
    First, to ensure that the Assistant Secretary of Indian 
Affairs has the capacity to lead the Bureau and to hold its 
components accountable for their performance, we recommended 
three things. First, the establishment in the Office of the 
Assistant Secretary of a Policy, Management, and Budget Office 
that reports directly to him. The Office should include a 
comptroller unit with program analysis, budget, and accounting 
groups, a plans and policy group, a human resources group to 
deal with work force issues and services, an information 
resources planning group charged with creating and maintaining 
Bureau-wide information systems, and an equal employment 
opportunity group.
    Secondly, the Assistant Secretary should utilize more fully 
the working group of the Domestic Policy Council in a strategic 
way to coordinate and harmonize programs for American Indians 
and Alaskan Natives.
    Third, there should be a recognition that the three 
service-providing organizations--the Bureau, the law 
enforcement, and the education components--are independent, 
operating entities and each should report directly to the 
Assistant Secretary and have responsibility and authority to 
provide programs and services to handle its own administrative 
functions.
    The second major category of recommendations dealt with the 
establishment of managerial discipline in the Bureau and to 
bring it into compliance with GPRA's focus on results that make 
a difference in the lives of Native Americans. So we 
recommended that the Assistant Secretary strengthen the 
Bureau's strategic planning and annual performance plan to meet 
GPRA requirements, to establish a system of management and 
performance reviews of key managers and staff, and to use 
modern information technology to update, disseminate, and keep 
current BIA manuals and operating handbooks.
    We estimated that the implementation of these 
recommendations will require approximately 50 positions in the 
Washington headquarters. The headquarters operation cannot be 
effective without adequate support staff in the agency and area 
offices. The amount of staff needed in the field we felt can 
really be determined only after very careful work force 
analysis to assess the existing capabilities and deficiencies 
in each of the offices. Our research staff and the panel 
estimated that this may entail as few as 150 or as many as 200 
positions when the recommendations of the report are fully 
implemented.
    The panel emphasized that the management and administrative 
reforms we propose should not be undertaken on faith by the 
Department, by OMB, or by the Congress. Tangible results should 
be demanded and the Assistant Secretary should be held 
accountable for their achievement. One of the first tasks of 
the new management staff that we recommended should be the 
development of management milestones to achieve tangible 
results such as: getting a clean audit in a reasonable period 
of time, to be able to produce credible and well-documented 
estimates of program requirements, to reduce friction among the 
program and service units of the Bureau, and an end to the 
perception that some tribes hold that central service units are 
unresponsive.
    Performance measures should be established consistent with 
GPRA that allow the Assistant Secretary to hold program 
directors accountable for their performance as managers of the 
services and resources that are allocated to them.
    There should be clear policies and guidelines for employees 
to follow in the performance of their trust, program delivery, 
and oversight responsibilities. One of the tests would be 
mechanisms for better coordinated Indian policy across all 
relevant Federal agencies and increased confidence among the 
tribes that moving to self-determination and self-governance 
will not result in neglect of Federal responsibilities.
    Finally, as a measure to improve and ensure accountability, 
we have recommended that the Assistant Secretary prepare an 
annual progress report to the Secretary and to Congress on the 
implementation of the recommendations, the effect of the 
changes on the effectiveness and efficiency of the Bureau, and 
the reasons for progress or the lack thereof.
    Thank you, Mr. Chairman.
    [The statement of Mr. Hanson follows:]
    Offset Folios 177 to 185 Insert here

<SKIP PAGES = 009>

    Mr. Regula. Thank you.
    We will have Mr. Gover's testimony, and then we may have 
some questions for both of you.
    Mr. Gover, we are happy to welcome you. As you have 
observed, you have a challenge, but we would like to hear from 
you, however you choose to present your issues.

                     Opening Statement of Mr. Gover

    Mr. Gover. Thank you, Mr. Chairman.
    When I came on board as the Assistant Secretary for Indian 
Affairs, I learned to my dismay the scope of the management and 
administration problems we had. Of course, looking back it is 
easy to see a number of causes, not the least of which was the 
loss of personnel in 1996.
    First of all, let me say that we appreciate NAPA's work. We 
appreciate your support of our contracting with NAPA to do this 
study. We learned a number of very important things.
    A number of the findings were no surprise. We were well 
aware, of course, that we were not performing the way that we 
needed to. I think the result of that is that when we come 
before this committee and other committees of the Congress to 
ask for more resources or more authority, you are skeptical as 
to our ability to properly handle the authority and the 
resources you provide. That is why it is so important to me 
that we gain your confidence and the confidence of the entire 
Congress in our operation.
    What NAPA identified that I had not realized completely is 
that when Congress created the Office of Indian Education 
Programs a few years back, what it had essentially done was to 
create another bureau. But it wasn't completely another bureau. 
It left a number of administrative and management functions 
sort of in the discretion of the Assistant Secretary and the 
Bureau of Indian Affairs. What we found is that fairly 
consistently the OIEP felt they were not being properly served 
by the BIA management and administration operation.
    I had hoped when I first began to look at this issue that 
we would be able to find a way to maintain a single line 
organization in order to realize whatever savings we could in 
management and administration. I had hoped that we would not 
have to create another whole organization to manage these sorts 
of things in both parts of the Bureau. NAPA advises--and I now 
agree--that is not going to be possible and what we really do 
have to do is provide the resources, the authority, and then 
demand accountability from the managers in those separate line 
organizations.
    NAPA also appreciated, in a way that I had not, that the 
ambiguity as to what the Assistant Secretary actually is and 
does creates its own set of management problems. If my office 
is treated like the other Assistant Secretaries in the 
building, then the Bureau never really does have the sort of 
accountability systems it needs. Each organization--the Office 
of Indian Education Programs, the Office of Indian Programs--
reports to the Assistant Secretary, but the Assistant Secretary 
really is very much at the mercy, shall we say, of the line 
organizations because I have basically six staff to evaluate 
the entire operation of what is now a $1.9 billion operation. 
With all the case work we have to do with the tribes as they 
come in, there is very little time for this effort.
    I do appreciate NAPA's recommendations and we intend to 
implement them.
    Along those lines, we have begun the implementation of the 
NAPA recommendations. Frankly I had hoped that we would be able 
to report to you today that the Secretary has signed the 
reorganization of our office. That has not happened yet. The 
document is prepared and it is in the system. We expect that 
the Secretary will sign it in a matter of days. But I do think 
we will be able to complete that within the next couple of 
days.

                               Relocation

    The second part of the empowerment program, if you will--
and more accurately, the accountability program--is that we 
have to deal with the material weaknesses in our audits. Most 
of those exist in our Division of Accounting Management and our 
Office of Information Resource Management. Those two offices, 
and about 125 employees that work for them, were located in 
Albuquerque, New Mexico.
    I do not know how that happened, and Bureau lore does not 
really explain how those organizations ended up in Albuquerque, 
but what I experienced personally as well as by managers was 
just a lack of responsiveness out of those offices that we 
attributed to the distance between the senior managers in the 
agency and the personnel who were responsible for executing 
these responsibilities. After due consideration and after 
consulting with both NAPA and with our senior managers, we 
decided that what was really called for was to bring those 
people back here where they could be directly supervised by the 
senior management in the agency so that we can begin to address 
all these accounting concerns.
    Mr. Regula. That is consistent with their recommendations, 
is it not?
    Mr. Gover. NAPA did not make a specific recommendation to 
that effect. They did make the observation that it may be 
necessary to make such a move in order to create the kind of 
accountability we are looking for. So we felt that we were on 
firm ground, based on the NAPA report, and based on our own 
observations of the unresponsiveness of those organizations to 
direct this to the most senior management in the agency.
    Yes, I believe it is consistent with what NAPA had in mind.
    It is very difficult to supervise employees that are 
literally 2,000 miles away. And it is hard for them to 
understand and even share the priorities that management puts 
forward. Our belief is that by bringing those organizations to 
the Washington area, putting our information resource 
management organization out on the Dulles corridor with its 
great capabilities in terms of information technology, and 
putting them under the direct supervision of people who then 
report directly to me, we will then begin to achieve results.
    That is the rationale behind that move.

                            FIELD RESOURCES

    The third element of the implementation has to be to put 
more resources into the field in the two line organizations, 
under the Deputy Commissioner in the Bureau of Indian Affairs 
and under the Office of Indian Education Programs. I cannot 
hold the managers accountable if I am not also giving them the 
resources to do what I have asked them to do. So our budget for 
next year does request funds to do exactly that, to put more 
resources into these two line organizations and out into the 
field as well as in my office to begin to carry out this 
program of accountability.
    Mr. Regula. Will that require an increase, or will that 
require reallocation of your funding?
    Mr. Gover. We will reallocate some of the funding, but it 
will also require an increase, which we have requested. NAPA is 
now conducting a workload analysis for us to tell us what is 
the best distribution of both the personnel and the financial 
resources. We expect that plan this spring, and that will guide 
our efforts in deploying these new resources.
    Mr. Chairman, again I want to commend NAPA and thank them 
for their work. They grasped very quickly a very complex 
organization and maybe that was what was called for: an outside 
look to help us find our way to what may seem obvious to many 
observers. I think it is a strong report. We intend to 
implement virtually all the recommendations NAPA made. We thank 
them for their work and we thank you for your support of our 
commissioning NAPA to do this work.
    [The statement of Mr. Gover follows:]
    Offset Folios 192 to 197 Insert here

<SKIP PAGES = 006>

    Mr. Regula. Thank you.
    As I understand you, you see the NAPA report as a blueprint 
for reorganization of the Bureau.
    Mr. Gover. Yes.

                        STATUS OF IMPLEMENTATION

    Mr. Regula. This question is on the current status, and the 
answer is whether you are underway in implementing their 
recommendations at this time.
    Mr. Gover. We are well underway. I would have liked to have 
been a little further along, but I think we are moving very 
aggressively in that direction. Certainly by the end of this 
fiscal year we will have established the institutions that NAPA 
calls for, and then in 2001 we can begin to implement the line 
authorities that are necessary to hold managers accountable and 
to provide the resources in the field that are going to be 
necessary to meet our obligation.
    Mr. Regula. Will you fill these positions in-house, or will 
you go outside for the administrative functions that they 
outline?
    Mr. Gover. I intend to advertise for each position. I 
expect that we will get some applications from in-house. 
Hopefully we will also be able to attract some new talent to 
the Department.
    Mr. Regula. Are the NAPA recommendations consistent with 
GPRA?
    Mr. Gover. Very much so. NAPA is basically saying that we 
now have no proper capabilities to report results from the 
programs that we operate. They are correct. And one of the 
problems is that we do not have the internal capabilities to 
provide that kind of accounting.
    There is another whole series of problems that arise from 
the self-determination and self-governance policy in that we 
have only limited ability to request information from the 
tribes to tell us how Federal dollars are being spent. That is 
something that we want to analyze very carefully with this new 
staff capability that we are developing and come back to the 
Congress and the tribes and show some areas where we think we 
need more accountability at the local level. But in the 
meantime, we can certainly make the BIA-operated programs very 
accountable to the Committee.
    Mr. Regula. You are saying that you want oversight on the 
expenditure of funds as they are allocated to the tribes. Is 
that correct?
    Mr. Gover. Yes, sir. We want oversight.
    Mr. Regula. And accountability?
    Mr. Gover. And accountability. We are not looking to 
control how the tribes spend the funds except in the sense that 
these funds are being spent for the authorized purposes. I 
cannot tell you today from the information the tribes are 
required to submit to us on an annual basis that in fact those 
funds are being spent for the authorized purposes. And we 
really need to take a careful look at that.
    The problem is that the tribes will immediately interpret 
this as an attempt to go back to the bad old days when the 
Bureau of Indian Affairs told them what to do with every single 
dollar. I can only emphasize that that is not what we want to 
do and that we have to find a middle ground where we can both 
tell the Congress where we spent the money, what we 
accomplished, what remains to be done, and what it is going to 
cost. We cannot do that right now.
    Mr. Regula. Would you contemplate at least summarizing the 
NAPA recommendations and distributing them to the tribal 
leadership so they understand where you are coming from?
    Mr. Gover. We distributed the report to each tribe and 
frankly did not get a lot of feedback on it, interestingly 
enough. What I have done with the tribes is to ask the National 
Congress of American Indians to set up a working group to work 
with us on what we are calling reporting and accountability. 
Ideally, we will be able to simply negotiate with the tribes 
the kind of reporting and accountability that is necessary for 
us and for you to evaluate program performance in the field.
    The Deputy Commissioner has funded that task force to 
assist us in that effort. I am fairly hopeful that we will be 
able to work it out with the tribes without involving the 
Congress. We will certainly be reporting to the Committee and 
the authorizing committees the results of that work.
    Mr. Regula. Is there any language we could include that 
would be helpful to you? You may want to submit something for 
the record on that. Sometimes it is helpful to be able to point 
to something when trying to get a desirable response.
    Mr. Gover. With your permission, Mr. Chairman, I will think 
about that and get back to you in writing.
    Mr. Regula. Is it your impression that the BIA is moving in 
the direction you have recommended in your report?
    Mr. Hanson. Yes, that is correct. We do think that there is 
great receptivity by the Assistant Secretary and the Department 
to implement these recommendations.
    Mr. Regula. As I understand it from the staff, you went out 
into the field and talked to people there. What was your 
impression? Do you think there will be a willingness to try to 
work with the recommendations? I am talking about on the part 
of the employees in the field and the tribal leaders.
    Mr. Hanson. Let me ask Dr. Neves to respond to that because 
she and others were directly involved with the field work.
    Ms. Neves. It is my impression that the people working in 
the field are very receptive. They were receptive not only to 
have us come and listen to what they had to say and take an 
interest in the work they are doing, but they are clearly 
overworked, understaffed, and we found them to be very capable 
and competent. I think they are looking for help and will be 
willing to do what is necessary from their side to make this 
work.
    As you might guess, I think they are concerned about the 
distribution of those 200 people. Once the workload analysis is 
done, I think they will feel more comfortable with the 
recommendation.

                             NAPA's IMPACT

    Mr. Regula. One last question.
    If these recommendations are implemented, what will be the 
impact on the average individual out in the tribes? How will 
their quality of life be improved? What is your opinion if we 
can get these recommendations put in place and implemented?
    Ms. Neves. I think the provision of services will be 
improved measurably. One of the things that is important to 
understand and which we did not include in our report are the 
programmatic needs. They are huge. When you have a social case 
worker with a load of 140, you need to address the program side 
also. We addressed the administrative needs.
    In reports issued by the BIA and the tribes, there are 
countless examples of the lack of resources on the programmatic 
side. I think to really make a difference you need a 
combination of resources on the administrative side of the 
house as well as the programmatic side. There I think we are 
talking about a very large amount of resources.
    If you look at law enforcement, education, the provision of 
social services, natural resources--and it can go on and on. 
This is a growing population and a population whose needs have 
not been adequately addressed for decades.
    Mr. Hanson. I would just add, Mr. Chairman, from the 
panel's perspective, to address these program needs effectively 
there have to be--from the Bureau's perspective--credible 
estimates of what those needs are. From your perspective, you 
need those credible estimates. They cannot be made without the 
kind of administrative support that we have recommended for 
both the headquarters and field offices.
    Mr. Gover. I agree with that, Mr. Chairman. That is the 
idea here. I do not look to see that my legacy will be that I 
was a budget hawk, but I do believe that we owe you and we owe 
the Congress a very careful accounting of the dollars you give 
us before we come back and ask for more. This has to come 
first. We have to get those systems in place so that year after 
year, regardless of who is sitting in this chair, that person 
can come to you with numbers that are real and based on real 
evidence out in the field. We do not have that capability right 
now.
    Mr. Regula. You are really saying that if the 
administrative structure is improved in conformance with these 
recommendations that it ultimately will translate into a better 
quality of life for your constituency?
    Mr. Gover. I believe that. I believe it will take some time 
for that to happen, before these improvements show up out in 
the field.
    Mr. Regula. I understand that.
    Mr. Gover. But the essence of the NAPA report is 
accountability. Right now, I do not have the ability to hold 
the program managers accountable in any meaningful way against 
identifiable performance measures. I believe once this 
oversight organization is in place--oversight and 
policymaking--that that will in fact improve the delivery of 
services on the reservation, whether or not we get more 
resources from the Congress.
    Mr. Regula. That is a positive note. I think you both agree 
that these objectives are consistent with GPRA.
    Mr. Gover. Yes.
    Mr. Hanson. Yes, sir.
    Ms. Neves. Yes.
    Mr. Regula. Mr. Dicks?
    Mr. Dicks. I want to welcome all the witnesses here today.
    Mr. Hanson, I am sorry that I was not here for your 
presentation, but I got a chance to take a look at it and our 
staff has reviewed it. Of course, I, too, am troubled by the 
conclusions of the report.
    ``Current management and administration of the BIA are not 
adequate to meet all its trust responsibilities to American 
Indians. The BIA has had difficulty satisfying the Government's 
requirements for strategic planning and annual performance 
planning. BIA has been unable to meet basic administrative 
requirements. It does not have a unified approach to human 
resources. The budget structure does not provide the 
information necessary to estimate actual needs. The financial 
management systems do not permit matching funding to 
requirements. There is not an unqualified audit. Since 1991, 
procurement has been identified as an area of material 
weakness. BIA procurement improvement efforts have been ongoing 
for 25 years without success. There is no human resources 
succession plan or management development program. BIA uses 
information technology far less than other Federal agencies. In 
the area of record management, the BIA has major longstanding 
problems.''
    I would like to ask one thing.
    Mr. Hanson, you say here that they need additional people 
but you do not want them to get the people until they have made 
the commitment to make the change.
    Does that paraphrase this accurately?
    Mr. Hanson. Well, in a sense, yes. We take it that they 
have made the commitment to make that change. To establish the 
systems that are necessary to correct these problems, they 
really have to have additional people.
    One of the problems that the Assistant Secretary has 
pointed out to you is that he has six people in his office to 
manage this entire operation. He needs the kind of policy, 
program analysis, budget, human resources, information 
resources staff that makes it possible to collect, assemble, 
analyze data, prepare budgets, establish performance goals, 
develop a strategic plan, and have the kinds of information 
available to him that makes it possible for him to hold the 
operating parts of the Bureau accountable for their 
performance.
    Without that, he is engaged in a good guessing game, which 
is about as good as you can put it.
    Mr. Dicks. I understand that we are waiting for the 
Secretary to sign this order requiring that these changes be 
made. It is one thing to sign an order and require things to be 
changed. It is another thing to do it.
    Is that true?
    Mr. Hanson. Of course.
    Mr. Dicks. Just signing the order is not going to get this 
job done.

                            BUDGET INCREASES

    I understand that your budget requires 596 additional FTEs 
to the BIA and a 10 percent increase in its operating budget. 
Is that correct?
    Mr. Gover. That is correct. Not all of that, of course, is 
necessary for implementation of the NAPA recommendations.
    Mr. Dicks. How do you separate the request?
    Mr. Gover. About an additional $4 million we are looking 
for----
    Mr. Dicks. An additional $4 million on top of this?
    Mr. Gover. No, over fiscal year 2000. The Committee gave us 
$5 million last year to begin implementation of the NAPA study. 
Our current estimates--and of course we are still working on 
the workload analysis--our current estimates are still 
consistent with the request for next year, which would give us, 
in essence, $9 million over fiscal year 1999 to conduct these 
administrative functions.

                           BUREAU COMMITMENT

    Mr. Dicks. One other statement made here was particularly 
troubling. ``The Academy's concern stems from the lack of core 
capability in the management of the Bureau and the lack of 
proactive, consistent, and committed leadership within BIA and 
the Department.''
    Will this order and the additional funds enable you to 
provide consistent and committed leadership within BIA and the 
Department?
    Mr. Gover. It is difficult for me to answer that in light 
of the fact that I will only be here another year. But I can 
assure you that we are committed to this effort.
    One of the problems has always been that there has never 
been in the Bureau of Indian Affairs a very stable system of 
rewarding good management. That is part of what has to change.
    We know that with this $9 million and with the secretarial 
order--which is important in the sense that I have no authority 
to go out and start hiring this new Chief Information Officer 
or Chief Financial Officer and the other people NAPA recommends 
until the Secretary has told me that I can--that is the 
significance of the order. That is why we need it so badly.
    As soon as that is done, we have already prepared the 
position descriptions and we are ready to run them through the 
system and start hiring these folks.
    Congressman, all I can tell you is that I am committed to 
it. I believe we can start a ball rolling that regardless of 
who my successor is, they will be unable to stop it. Certainly 
with this committee's oversight and with the Resources 
Committee's oversight, we will be able to keep this train on 
the track.
    Mr. Dicks. Do you plan to recruit people from outside BIA 
or outside the Department of Interior? Are you going to hire 
people from within the agency?
    Mr. Gover. I would expect that we will do both. We are 
going to advertise these positions per the Civil Service 
requirements. I expect that some people who are currently 
within the agency will apply. Certainly in those circumstances 
where they are the best qualified, we will hire them. But it is 
of great concern to us that we attract new talent into the 
Department to carry out these functions.

                          EMPLOYEE DEVELOPMENT

    Mr. Dicks. One area that was also mentioned--hopefully not 
being redundant--on page 13 of the executive summary, the NAPA 
report states, ``BIA gives employee development almost no 
organized attention, nor does it systematically invest in 
employee training.''
    Will this be part of the area that you will address under 
the order? Trying to do a better job of training your own 
people?
    Mr. Gover. Yes, sir. One of the positions NAPA recommends 
is a Human Resources Director to develop exactly those 
policies, including training and succession planning, so that 
we do always have capable people in line to take over as people 
leave the agency. That is not the case right now. The personnel 
capabilities at the Bureau are almost zero. We contract with 
other agencies in the Department to do our personnel work 
because we basically lost our human resources office in the 
1996 RIFs.

                           SELF-DETERMINATION

    Mr. Dicks. Under self-determination, a grant is given to 
the tribe and they use that money to manage their programs, 
correct? How would you explain it better?
    Mr. Gover. I would say that we provide the resources for 
the tribes themselves to carry out programs that we otherwise 
would be providing on the reservations.
    Mr. Dicks. Do we have good information about how that money 
is being spent?
    Mr. Gover. No, we do not. Not the kind of information I 
would like to come before this committee with.

                             SINGLE AUDITS

    Mr. Dicks. Thus far it is not auditable. Is that correct?
    Mr. Gover. It is auditable, and they do submit single 
audits every year in accordance with the law. The single 
audits, though, do not tell you very much.
    First of all, they tell you almost nothing about program 
results. What they do say is whether or not the Federal dollars 
are being spent for Federal purposes, in essence. But one of 
the things we are finding out is even where we find that a 
tribe is not spending money for the appropriate purposes, we 
have very little leverage to force compliance. Our basic option 
under the statute is to take the program away. That is not a 
meaningful alternative for us.
    Mr. Dicks. Take away the whole self-determination program?
    Mr. Gover. Exactly.
    Mr. Dicks. An all or nothing remedy?
    Mr. Gover. That is exactly right. And we need some more 
tools.
    This year we began withholding from tribes that were not in 
compliance with the Single Audit Act their contract support 
funds. I have met with a number of them and they say that I 
have no authority to do that. I say that it is a close call 
under the law. I do not know if I do or not, but I am going to 
do it because I do not think they will be able to convince any 
decisionmaker that they should be able to violate the Single 
Audit Act and still get their money.
    Mr. Dicks. When you say ``single audit''--what does that 
mean?
    Mr. Gover. That is the unified audit that recipients of 
Federal funds--be they States, localities, or Indian tribes--
must submit to the United States to account for the Federal 
dollars they have received. It is unified so that it combines 
all the agencies.
    Mr. Dicks. Do you have auditors that go out and check 
verify this is the way the money was spent?
    Mr. Gover. I have an audit and evaluations staff that 
eventually receives the audits submitted by independent 
auditors. The tribes have to retain independent auditors to 
provide reports to us. That audit staff then reviews those. 
Where we see problems, we follow up. Quite often the Inspector 
General will direct us to pursue certain issues that arise in 
the review of the single audits.

                     ACCOUNTABILITY OF EXPENDITURES

    Mr. Dicks. Are we finding a lot of problems?
    Mr. Gover. There are problems, yes. Certainly when we do 
identify them we have been very aggressive in trying to resolve 
those over the past couple of years.
    The problem is much less with the accountability for the 
Federal dollars. We are relatively confident that the level of 
misappropriation is not a major concern. The real problem is 
that even though we know it is spent for Federal purposes, we 
have no idea what sorts of results are being achieved in the 
field.
    Mr. Dicks. And accountability is the problem. If you look 
at the statistics, there are still a lot of problems in Indian 
country in terms of unemployment, educational attaintment, and 
other areas that are much more serious than in society in 
general.
    Mr. Gover. Much more serious. And even though we can see 
progress, we have no notion whether that is because of the work 
that we are doing and the work the tribes are doing with 
Federal dollars. So it gives us very little ability to properly 
allocate resources.
    Mr. Dicks. What are we going to do to address that problem? 
How do we get a handle on it?
    Mr. Gover. First of all, we are working with the tribes and 
have asked the tribes to form a group to work with us on this 
reporting and accountability issue. The tribes have been very 
forthcoming, I must say, about participating because they see 
that it is in their interest to provide that kind of 
information to you. So we will pursue that.
    If we find that that is not enough and that voluntary 
compliance by the tribes is not enough, I would assume that one 
of my successors will be coming to you and asking you to take a 
look at the authorizing statute, P.L. 93-638.
    I guess I will just be candid since I will not be here 
again.
    Mr. Dicks. We always expect you to be.
    Mr. Gover. Congress went a little overboard in making sure 
that the Bureau of Indian Affairs stayed out of the tribes' 
business under this law. I perfectly understand the reasons 
that it did so. But by telling the Bureau that they cannot make 
regulations regarding any program requirements and that sort of 
thing, it leaves us with virtually no authority to direct how 
services are delivered on the reservation. Somewhere there is a 
better balance, I believe. The Bureau should not be telling 
these local communities that they will do this and they will do 
that. However, we need the ability to get that information and 
bring it to you to show how these dollars you are giving us are 
being spent. Right now, we do not have that authority.
    Mr. Dicks. So you think there may be a necessity--unless 
you can work this out with the tribes--to have possible some 
additional authority?
    Mr. Gover. Yes, sir.
    Mr. Dicks. And that will be controversial?
    Mr. Gover. Very.

                         TRUST RESPONSIBILITIES

    Mr. Dicks. How are we doing on natural resource programs? 
This has been a concern in my area--timber and other issues--
where there is a trust responsibility to the tribes. This is 
another area that is mentioned in the report.
    Mr. Gover. It is, and we face many challenges in that area. 
All of this litigation and the great tumult over our execution 
of the trust responsibility in the past demonstrates the kind 
of problems we have.
    We have undertaken a massive reform program that is 
proceeding and is beginning to yield results. There is no 
question that we have a lot of work left to do. What we have 
realized in the course of going through and trying to clean up 
what has happened in the past is that if we do not increase the 
resources that we are devoting to these programs, 5 years hence 
we will be back in the same situation we are in now. What is 
required is not only to design, establish, and implement these 
systems, but get highly qualified people to operate them. Then 
and only then will we be meeting our trust responsibility to 
the tribes for these resources.
    Mr. Dicks. And we have heard from the Secretary about the 
problems with the recordkeeping and the various lawsuits. How 
long do you think it will take us before we see real progress 
on all these issues? Will it be 5 years, 10 years, 15?
    Mr. Gover. We are seeing real progress now, but we have 
sort of started at the bottom. We can begin making progress 
immediately, and we are. We are very hopeful that by the end of 
2004 we will be able to present to the Congress a reformed 
trust management system. Meanwhile, it obviously is taking 
place piecemeal. It will go into effect bit by bit. We have 
twelve different projects that are part of the overall effort. 
In each case we are making progress--some faster than others.
    But the main projects we have to complete are the Trust 
Fund Accounting System, TFAS, and the Trust Assets and 
Accounting Management System. If we can successfully deploy 
those, our field personnel will have the tools they need to do 
this job correctly.
    Mr. Dicks. Thank you, Mr. Chairman.

                           OFFICE RELOCATION

    Mr. Regula. Reform is the watchword these days.
    I understand on March 6 the plaintiffs in the Cobell case 
filed suit to get a temporary restraining order against moving 
the Office of Information Resource Management to Washington. 
This is inconsistent with the recommendations of NAPA, if I 
understand it correctly. Would you agree?
    Ms. Neves. NAPA did not explicitly say to move the office 
here, nor did it say not to. NAPA believes that that is the 
Assistant Secretary's decision.
    However, NAPA saw advantages to moving the office here, 
having face-to-face contact, and enhancing the responsiveness 
of the people working in that area. A lot of it depends on the 
style of the individual administrator. A lot of it depends on 
how far decentralization has taken part. A lot of it depends on 
whether you have strong integrative mechanisms to tie together 
an organization in Albuquerque with Washington. NAPA feels some 
of those elements are definitely missing.
    In this lawsuit, it is my understanding that there is some 
misunderstanding about what NAPA said and what NAPA did not 
say. But we were at times persuaded to believe that face-to-
face communications would be very useful in order to better 
manage this agency.
    Mr. Hanson. The specific recommendation of the panel 
appears on page 45 of the report.
    Mr. Regula. That would be directed at this question, then?
    Mr. Hanson. Yes.
    Mr. Regula. Will the Department appeal this decision?
    Mr. Gover. First, we will comply with the decision. The 
judge said that we were not to move information that is now 
housed at the Office of Information Resource Management in 
Albuquerque until we have provided a satisfactory plan for the 
security of that data. And we will supply----
    Mr. Regula. The transition? Or once it is here?
    Mr. Gover. Both.
    But the irony is that one of the criticisms both the 
Inspector General and NAPA had of our IRM operation is that 
there is inadequate security now. We believe security will be 
improved when we bring it back into a proper facility and a 
proper direction by the Central Office.
    But of course we will comply with what the judge has said. 
We have taken irrevocable personnel actions to cause the move 
of the personnel associated with that office. In fact, some of 
them are probably in their cars on their way here as we speak. 
So we are sort of at a point of no turning back. But the judge 
has imposed conditions on that move that we believe are 
reasonable. It is probably easier simply to comply than to go 
through the trouble and turmoil of an appeal.

                          INFORMATION SECURITY

    Mr. Regula. What kind of information do they have that 
would be top secret or be a concern?
    Mr. Gover. It is not top secret information. It is 
information having to do with the economic interests of 
individual account holders in our IIM system. It is Privacy Act 
material that we have responsibility to keep secret and not to 
share with those who are not otherwise authorized to have such 
information.
    The judge felt that we had not gone far enough--and I am 
working on second-hand information myself here--in our contract 
requirements with the contractor to assure the security of that 
information. We have already talked to the contractor. We will 
amend the contract as per the court's directions, and we will 
submit the security plan the judge has asked us for.

                           SYSTEM MANAGEMENT

    Mr. Regula. This is the contractor that manages the 
information system on behalf of BIA?
    Mr. Gover. No, it is actually a contractor we brought on to 
help us specifically with the move. But in order to do that, 
they are going to have to have access to this Privacy Act 
material and that creates certain requirements on them. The 
court has made that clear to us and we will comply.
    Mr. Regula. Your plan is to move, but to do this you will 
have to adjust to the order of the court, which has set certain 
parameters that you need to meet as a prerequisite of moving 
OIRM?
    Mr. Gover. Of moving the information, yes.
    Mr. Regula. The office would have to go with it, right?
    Mr. Gover. The plan was to move the people here, to get 
them set up and organized with their own system. Meanwhile, we 
would use a contractor out in the field to keep the system 
running while they are transitioning.
    Mr. Regula. Do you have any problems with the present 
operation?
    Mr. Gover. Oh, my. We have a number of problems.
    As I indicated earlier, they have been identified as a 
material weakness by our auditors. There is inadequate security 
for the information they manage. There are inadequate controls 
and inadequate policies and procedures, which is why we need a 
Chief Information Officer that is directly supervising this 
office in order to get the kind of results we expect.
    Mr. Regula. Do you have one now?
    Mr. Gover. No, we do not. In the Trust Management 
Improvement Project, we are finding out that we still have 
field personnel who are operating on old DOS operating systems. 
They do not even use a Windows system. They are still using the 
control keys. They do not know how to use a mouse. They do not 
know how to point and click. They do not know what a pop-up 
menu is.
    Frankly, these are all new terms to me, too. [Laughter.]
    Mr. Gover. But for modern management, this is old stuff. So 
our IRM operation fails to take advantage of the kind of 
technology that is available to do our job. That is what NAPA 
identified and it has to stop.
    Mr. Regula. The records aren't really computerized in the 
sense that you can recall them instantly?
    Mr. Gover. That is correct. We keep some current data on 
the system, but we still have field personnel--another thing 
NAPA pointed out--getting into files and using the original 
conveyances from as much as 100 years ago in paper records in 
their offices. That is not how people do business today.
    Mr. Regula. You do the accounts where you show the 
leasehold revenues that flow to the tribes. Wouldn't the tribes 
want you to have these records in good shape because it affects 
the access money coming to them?
    Mr. Gover. The tribes do want it in good shape, and they 
have been very supportive of our efforts in that regard.
    Some tribes have not been cooperative in the sense that 
they want to keep those records on their reservation because 
they are very concerned that they might be lost, destroyed--and 
who can blame them for having that concern? But it is up to us 
to persuade them that we are going to take good care of those 
records.
    Mr. Regula. Does the tribe have a set and you have a master 
set?
    Mr. Gover. Unfortunately, no. There is a set. Some are in 
the possession of the tribes and others in our possession, 
depending on whether or not the tribes have taken over these 
functions. There may be duplicate records of various sorts, but 
not kept systematically as duplicates.
    Mr. Regula. No consistent system? Sort of on a tribe-by-
tribe basis as to how the records are maintained?
    Mr. Gover. Yes, I am sure that is true. That is why we have 
as an element of the Trust Improvement Project a records 
management project.
    Mr. Regula. Do you agree with this?
    Mr. Hanson. Yes, I do, Mr. Chairman.
    Just speaking personally for a moment, there are two kinds 
of administrative problems: some are problems and some are 
messes. What Mr. Gover has is a mess. He really has to have the 
power to correct it.
    Mr. Regula. I think this is a good point to move on to the 
Special Trustee.
    Mr. Dicks, do you have any further questions?
    Mr. Dicks. No, thank you, Mr. Chairman.
    Mr. Regula. Thank you very much for doing the report and 
for being here today. I think it is clear that it has resonated 
well with the Assistant Secretary trying to move the Department 
in the right direction. We appreciate your thoughtful response 
to the request.

                     OFFICE OF THE SPECIAL TRUSTEE

    Mr. Regula. Mr. Thompson, you are the Acting Trustee?
    Mr. Thompson. I am actually the Principal Deputy.
    Mr. Regula. You are in charge of the ``mess'' he described. 
Is that correct?
    Mr. Thompson. I was a little afraid to come up here when he 
mentioned ``mess'' but we can report some improvements to the 
mess we inherited.
    Mr. Regula. We look forward to your testimony. Your entire 
statement will be placed in the record and you can summarize as 
you choose.

                           OPENING STATEMENT

    Mr. Thompson. I will do that quickly. Let me just change 
the theme a little bit here.
    Again, I appreciate the opportunity to present the OST 
budget. The budget we present is for the entire trust reform 
effort for the Department with a couple of exceptions. The 
request is about $95 million, about the same level as last 
year.
    We basically have a couple of major changes. The actual 
reform dollars amount is going down a little bit from $65 
million to about $58 million and we are asking for additional 
funds to support the Indian land consolidation effort that 
Kevin has running now. We would like to increase that effort to 
buy down the fractionated interest.
    We also support the need for additional money and staff in 
the field for BIA. We are bringing major reforms to trust 
management in Indian country, but without additional staff we 
will see those regress to the condition that we are trying to 
fix right now. Kevin needs additional help out there and we 
support his budget request in that arena.
    Again, the request that you see this year supports the 
emphasis and the importance of trust reform to the 
Administration, to Secretary Babbitt, and to Kevin and I.
    Let me mention some of the things we used the money for 
that you gave us last year. We do have some successes to 
report.

                      TRUST REFORM ACCOMPLISHMENTS

    Later this month we will complete the conversion of all the 
BIA regions to the new Trust Fund Accounting System, which 
means that all the 270,000 odd accounts and all the investment 
money is under a commercial standard trust system. It is 
operated by a company in Pennsylvania for us, and they are 
doing a very good job. That is the first major piece we were 
trying to do.
    In addition, Kevin's people have piloted the Trust 
Accounting and Asset Management System that will manage the 
land, the trust assets in the BIA. That has been piloted in the 
Rocky Mountain Region and we expect to make a decision shortly 
to extend that to at least the land title portion of the BIA in 
the next few months.
    We have done a lot of data cleanup. You have heard a lot 
about that, but there is still more to do. The condition of the 
records we spoke of just a moment ago, obviously. In the 
records management area, we have consolidated our effort into a 
single office that supports both OST and BIA. We hired a very 
seasoned and highly respected records specialist from the 
Department of State and he has now brought his staff on board 
and is moving--to answer Mr. Dicks' question, we think you will 
see significant changes in the records arena over the next 3 
years. We have a very extensive program and a lot of milestones 
and made a lot of commitments.
    I would also say that BIA is well on its way to eliminating 
the appraisal backlog we have uncovered in the trust reform 
effort. We have just published a new High Level Implementation 
Plan. That is the Plan that we use to manage the effort 
overall.
    This Plan is much more robust than the Plan we did 2 years 
ago. It has a lot more detail and a lot more milestones, if you 
will. The first Plan had about 134 critical steps; this one has 
over 220. So we are basically showing everybody our hand and 
where we are going to go.

                            REFORM TIMEFRAME

    Mr. Regula. How long will it take you to implement this?
    Mr. Thompson. A lot of this work you will see in the next 2 
years, but there are some pieces of it that will run out to 
2003 and 2004. To finish up the policies and procedures is 
going to take a little longer. As I mentioned, the records 
piece probably will not be done until 2002. Some of the systems 
will not be finished until 2002. It is a massive effort. We are 
dealing with over 4,000 people in BIA alone, probably 400 sites 
across the country, and millions upon millions of pages of 
records. And we are also spending a lot of time responding to 
the court, to be frank. A lot of the time in the last 6 months 
has been spent responding to the court, supporting the court 
effort. The same people who are doing the trust reform are 
doing the work for the court and also trying to carry on their 
day-to-day jobs.
    We were a little ambitious in our scheduling and we have 
had to change the plan to reflect that in some cases.
    As I said, there is a lot of work that has been done and 
there is more that needs to be done.
    I would like to mention one final thing. As you know, Mr. 
Slonaker has been nominated by the President to be the Special 
Trustee. The hearing in the Senate is scheduled for the 22nd of 
March. We hope they will move quickly in confirming him. I 
particularly look forward to having Mr. Slonaker sitting here 
instead of me.
    [The statement of Mr. Thompson follows:]
    Offset Folios 227 to 230 Insert here

<SKIP PAGES = 004>

                       SUNSET OF TRUSTEE'S OFFICE

    Mr. Regula. I take it the trustee's office will be out of 
business.
    Mr. Thompson. It will probably be in business until 2004, 
because that is what the schedule calls for. The trustee's job 
is to make sure that----
    Mr. Regula. Do you think you will meet that schedule?
    Mr. Thompson. I believe we can meet that schedule, yes.

                          BIA TRUST INCREASES

    Mr. Regula. The Bureau's budget proposes significant 
increases for real estate services, probate, survey, and land 
record improvement. Have you developed a long-term plan to 
eliminate this backlog and get these records up to date?
    Mr. Thompson. That request is the one I mentioned earlier. 
It is about $35 million, 250 new staff all dedicated to the 
trust management area in the BIA. It is critically needed. We 
find the people are overworked, they are stretched, and there 
is work that is not getting done.
    The long-term plan to fix those things is contained in the 
High Level Implementation Plan. You will see very specific 
pieces of work broken down about how to tackle areas of 
probate, appraisal, and cleaning up the backlog of data in both 
OST and BIA.
    Mr. Gover. In addition, Mr. Chairman, one of the things the 
judge asked us to supply was a plan for the adequate staffing 
of all the trust functions in both OST and BIA. We did so, and 
that plan calls for us to examine exactly the issue you just 
described--how many people it will take to do this right.

                         LAND OWNERSHIP RECORDS

    Mr. Regula. If I understand it correctly, the information 
on who owns what, who is owed what--all of that is in a 
somewhat chaotic condition. Your mission is to get deed records 
corrected, probate records to establish ownership of land, to 
establish the distribution of revenues to the proper 
landowner--is that essentially the case?
    Mr. Thompson. That pretty well sums it up, but I have lots 
of help because Kevin gets to do a lot of this work in the BIA.
    Mr. Regula. So it is a team effort?
    Mr. Thompson. Absolutely a team effort. In fact, this 
effort involves five different bureaus and offices within the 
Department of Interior--the Minerals Management Service, the 
Office of the Special Trustee, the Bureau of Indian Affairs----
    Mr. Regula. Because in some way they impact on the land 
management, either in leasing or----
    Mr. Thompson. Yes, sir.

                          FRACTIONATED SHARES

    Mr. Regula. Are you dealing with the fractionated shares 
issue?
    Mr. Gover. Yes, sir. In fact, we asked Congress for quite a 
bit of money to continue working on that. We have now spent all 
the money we were given in fiscal year 1999 in the pilot 
project in the Great Lakes Region and we had enormous success. 
My figures are now about a month old, but we found that we 
purchased 16,000 fractionated interests for about $4 million. I 
forget the statistics, but that allowed us to close a couple 
thousand accounts that we will no longer have to bear 
responsibility for.
    Given what it costs us year by year for OST to even have 
these accounts open--and remember, these are accounts that are 
generating virtually no money to the beneficiaries--just to 
keep those open, there is a significant savings to the 
Government to no longer have to maintain those accounts.
    Mr. Regula. And the Government will get the value of the 
royalties represented by those fractional interests. Am I 
correct?
    Mr. Gover. The idea is that we will be repaid out of income 
that is produced by these interests that we get. Having said 
that, I do not want to suggest that we are going to get this 
money back dollar for dollar. We are also finding that a number 
of these lands do not generate any income, never have and 
probably never will.
    Mr. Dicks. Could we do more of this? Are there more of 
these accounts that we could do if you had the money to settle 
with the individuals?
    Mr. Gover. Absolutely. That is why we are looking to expand 
the program.
    Mr. Dicks. How much could you use?
    Mr. Gover. We do not know the entire universe yet. We know 
we will spend the $5 million we have for fiscal year 2000 with 
no problem. And I believe we have asked the Congress for $12.5 
million next year. We have had no shortage of willing sellers 
and there is certainly no shortage of tiny interests that need 
to be bought out rather than to try to continue to manage them 
with all this expense.
    Mr. Dicks. Is there a report being done on this particular 
subject?
    Mr. Gover. Mr. Chairman, I will provide such a report.
    [The information follows:]

                       Land Consolidation Program

    In addition to the $12.5 million requested in the budget of 
the Office of Special Trustee for an expansion of the Land 
Consolidation Program, the Bureau conservatively estimates that 
it would cost approximately $500 million to eliminate the 
fractionated ownership problem associated with individually 
owned trust and restricted lands. It is important to emphasize 
that the problem of fractionated ownership is essentially a 
problem of the Federal Government and not that of Indian 
Tribes. Fractionation affects lands held in trust or restricted 
status by the United States for individual Indians and, 
therefore, administered and managed by the Federal Government.
    As of February 2000, the Bureau has acquired 18,956 
undivided interests (90 percent of the interests are less than 
two percent) approximately 11,000 acres at a cost of $4.5 
million under its Indian Land Consolidation Pilot program 
operated on three reservations under the administrative 
jurisdiction of its Midwest Regional Office.

    Mr. Dicks. It seems to me that if we are spending a couple 
billion dollars on trying to get these records straightened 
out--if we can eliminate a number of these accounts it seems to 
me that ought to be able to help us somewhat in dealing with 
the problem.
    Mr. Gover. We believe it is an excellent long-term solution 
to this problem.
    Mr. Dicks. I would rather take $2 billion and use it to 
settle the claims than try to--it seems to me, to be a better 
investment, to try to settle these claims.
    How many more years is this going to take?
    Mr. Gover. To get the systems back the way they are 
supposed to be, as Tom indicated, should be by 2004. But that 
does not resolve----
    Mr. Dicks. That is another $8 billion.
    Mr. Gover. Well, no.

                          TRUST REFORM BUDGET

    Mr. Thompson. Can I put some numbers on the table about 
what the cost is?
    To date----
    Mr. Dicks. So $2 billion is the entire operating budget for 
the whole period of time?
    Mr. Gover. For the whole BIA. That includes everything in--
--
    Mr. Dicks. How much of that $2 billion is for the trust 
accounts?
    Mr. Thompson. Sir, I can tell you what we have spent to 
date and what you have appropriated to date for trust reform.
    From 1997 through today in our request it is going to be 
about $200 million for the reform effort.
    Mr. Dicks. I feel better.
    Mr. Gover. However, Congressman, you have touched on an 
important issue. The likelihood is that we owe some people some 
money for what has gone on in the past. We can go about that in 
one of two ways. We can actually try to audit each and every 
one of these accounts at some phenomenal expense, or we can try 
to find another solution. As you say, I would much rather pay 
the accountholders than spend it trying to audit the accounts.
    Mr. Dicks. If it makes more sense, why wouldn't we try to 
do that? Would the people who are owed this money cooperate?
    Mr. Gover. We have a process underway now where we are 
going to go to the reservations and ask that very question: 
Here are a set of options, which one makes the most sense to 
you? Literally, to the accountholders. We do not know what the 
answers are going to be, but the point is to learn what exactly 
the question is you are asking. What do they want us to do?
    Mr. Dicks. Mr. Chairman, don't you think that if we can 
work out a settlement to minimize the amount of money going to 
people auditing these accounts, and these people would be 
satisfied, that that would be a better way to handle this 
instead of auditing thousands--how many accounts are there?
    Mr. Thompson. There are 300,000 accounts.
    Mr. Regula. It sounds like a good management tool.
    Mr. Dicks. Thank you for allowing me to interrupt, Mr. 
Chairman. I do have one additional question.
    On March 3 there was an AP article stating that it would 
take much longer to come up with the computer system to manage 
funds held in trust for the Indian community. The article 
further states that there are some severe development problems 
and there is no longer a time table to have it up and running 
nationwide.
    Could you please comment on these serious charges? Is this 
true?
    Mr. Thompson. What they are referring to----
    Mr. Dicks. Rex Hackler, a spokesman for the Bureau of 
Indian Affairs, did not return calls on Thursday.
    Mr. Gover. Congressman, let me leap to our defense here.
    First of all, as it happened, Mr. Hackler was out sick that 
day, so in fact he did not return phone calls. I thought that 
was kind of a cheap shot, frankly.
    We do not agree with the assertions that were made. 
Certainly, as Mr. Thompson testified, as we learn more and more 
about these systems we are finding that our original schedule 
was very, very ambitious and probably too optimistic. That does 
not change the fact that we have made remarkable progress in 
the development of this system.
    In fact, the system itself works. The software system 
works. That is not really the problem. The problem is that the 
data that exists in the field is on such antiquated systems and 
in such various conditions of disarray. That is the challenge, 
to convert that data into the system.
    The great irony here is that at the same time the folks 
that are making these types of accusations are telling us to 
slow down and put good data into the system--and we are now 
slowing down so we can ensure the integrity of the data--and 
then they say that we are not meeting our schedule. So we are 
damned if we do and damned if we don't on that.
    Mr. Dicks. But is there a possibility of getting all good 
data at this point?
    Mr. Gover. We will probably never get 100 percent accurate 
data going all the way back to the initiation of the system. 
That is correct.

                               SETTLEMENT

    Mr. Dicks. Has anyone approached the judge about a 
settlement on this matter? Is the Justice Department and the 
Department of the Interior trying to settle this case?
    Mr. Gover. We did, sir.
    Mr. Dicks. And the judge would not settle it?
    Mr. Gover. The judge was very interested in seeing the case 
settled. In fact, we had a settlement effort under the guidance 
of a mediator and it was unsuccessful.
    Mr. Dicks. Can you explain why it was unsuccessful?
    Mr. Gover. Unfortunately, Congressman----
    Mr. Dicks. You are a distinguished member of the bar. What 
happened?
    Mr. Gover. I am a member of the bar.
    Mr. Dicks. Distinguished, maybe? [Laughter.]
    Mr. Gover. We made an agreement with the plaintiffs when we 
began the effort to settle the case that we would not discuss 
the details. And we remain under court order not to do so.
    I think it is fair to say that we tried, they tried, and we 
were just too far apart to settle it at that point. We remain 
open to further discussions on any aspect of this and are 
hopeful that at some point in the not-too-distant future there 
will be another effort to simply settle the case.
    Mr. Dicks. Who is the plaintiff's lead lawyer on this? Is 
it an individual or a group of lawyers?
    Mr. Gover. A group of lawyers.
    Mr. Dicks. Anybody in charge? One name in this article was 
Keith Harper, a Cherokee lawyer representing----
    Mr. Gover. He is one of the attorneys for the case on that 
side, yes.
    Mr. Dicks. But is there any one law firm or anybody who is 
really the lead on the litigation?
    Mr. Gover. It seems to be a team effort, Congressman. There 
are three different law firms involved. Depending on the issue, 
we may see one firm or we may see another.
    Mr. Dicks. But it seems to me that this is the kind of case 
that would--with all this uncertainty and over 150 years of 
data--it would seem that the Government could come up with a 
fair settlement. It seems to me that would make good sense.
    Mr. Gover. I agree with that.
    Mr. Dicks. Then you need a system for the future to do this 
job appropriately. Do the best you can to recreate the records. 
But if it is going to be this expensive, then it seems to me 
there should be another effort to try to settle this thing.
    Mr. Gover. We agree with you.
    Mr. Dicks. I think it would be a good thing for this 
Administration to attempt before it leaves office.
    Mr. Gover. I take your words to heart and we will make 
another effort at it.
    Mr. Dicks. Thank you, Mr. Chairman
    Mr. Regula. Thank you.
    We have to deal with the budget yet.
    We appreciate your coming, Mr. Thompson.
    Mr. Slonaker, I think you realize there will be something 
to do when you get confirmed. There are a few challenges left 
for you. We wish you well in your Senate experience in 2 weeks. 
Thank you for a good job thus far. You have a big challenge.
    Mr. Gover, now you can tell us why you need more money. 
[Laughter.]

                     OPENING STATEMENT OF MR. GOVER

    Mr. Gover. Mr. Chairman, I can be very brief now. We have 
discussed so many issues.

                       FY 2001 BUDGET PRIORITIES

    We basically are looking at four priority areas in our 
fiscal year 2001 budget request. Far and away the largest 
element of the increase we have requested from the Congress is 
in the area of school construction. Our school system is simply 
in terrible condition. It is really not acceptable that a 
country with the resources that ours has, and a Federal 
Government that is responsible for only two school systems in 
the end, that one of those school systems should be in such bad 
condition in terms of its physical plant.
    We have been heartily criticized by the Congress and others 
for not making requests that are adequate to begin to attack 
this problem in a systematic way. We have tried to step up this 
year and really begin a comprehensive attack on this problem. 
So that is the majority of our request.
    Let me introduce the people who just joined us. Hilda 
Manuel is the Deputy Commissioner of Indian Affairs and Joe 
Christie is the Acting Director of the Office of Indian 
Education Programs, so I will refer all difficult questions to 
them.
    Another area in which we have asked for increases is in 
trust management. As we move forward with our trust reform 
effort what we find is that the cleanup and the reform of the 
system is not going to be enough. The reality is--as NAPA notes 
and as Mr. Thompson noted and as Judge Lambert noted--we just 
do not have enough people in the field to do the job we are 
responsible for doing, and that if we do not do it we are 
legally liable for any failures.
    So this is the first year we have requested major increases 
in our ongoing trust program. It is absolutely necessary that 
we begin to get those resources or else future administrations 
and future Congresses will find themselves inheriting the 
situation we have inherited.
    The second area is in the area of housing improvement. We 
have basically asked you to double our budget for the Housing 
Improvement Program. The Housing Improvement Program goes to 
the most needy people on the reservations. These are folks that 
could not even qualify to get into the HUD low rent program and 
could not even begin to qualify for the mutual home ownership 
program that HUD operates. So these folks are not served by the 
Department of Housing and Urban Development because they are so 
very poor.
    The tribal leaders that we worked with identified a need in 
excess of $800 million for this program area alone. I did not 
come to you with those numbers because I did not find that the 
analysis behind them was solid enough, but I am confident that 
we are talking about several hundred million dollars of need in 
this area. And this is something that we have not really 
focused on during my time here. So we ask you for that 
increase.
    The final major increase we requested is in the area of law 
enforcement. As the Committee well knows, the Congress has been 
very generous with us for the last 2 years in the area of law 
enforcement in response to the crisis that exists in Indian 
Country. If you are a Native American in this country, it is 
two and a half times more likely that you will be the victim of 
a violent crime than if you were not an Indian according to the 
latest Justice Department statistics. So it is essential that 
we continue to expand the law enforcement presence on the 
reservations.
    This year we are asking for about $18 million in new money 
to continue to expand our police services on the reservation. 
This would be on top of the increases we have requested before. 
This is year three of the Administration's 4-year effort to try 
to upgrade law enforcement on the reservations. In fact, we are 
putting more and more and more officers into the field. The 
problem, of course, is that as we begin to experience success, 
we are making more arrests, that creates more cases, that 
creates more people that we have to jail. So we have increasing 
needs in those areas as well.
    Mr. Regula. Does it have a deterrent effect on crime?
    Mr. Gover. I cannot say that yet. The way money gets spent 
in the Government, there seems to be a lag between the time you 
give it to us and the time we begin to see results in the 
field. But we will get you whatever information we do have on 
that.
    [The information follows:]

     Bureau of Indian Affairs Law Enforcement--Deterrents to Crime

    The additional resources the Congress has provided for the 
Presidential Initiative on Improving Law Enforcement in Indian 
Country have been used to invigorate and strengthen the police 
presence in Indian Country. An increased police presence 
creates a strong deterrent to crime.
    Just a few years ago, many calls to police departments for 
service in Indian Country were not answered and officers were 
required to patrol alone due to insufficient resources. As a 
result of increased funding provided through the Initiative, 
additional trained officers have been hired and are available 
to respond to calls and develop proactive crime prevention 
strategies. As more officers are hired, police departments are 
becoming increasingly involved with programs such as Drug Abuse 
Resistance Education (D.A.R.E.) and Gang Resistance Education 
And Training (G.R.E.A.T). These programs help police officers 
develop rapport with young people and their communities, and 
reduce the likelihood that they will engage in crime. In 
addition, police managers are implementing community-oriented 
policing strategies, to draw on the problem-solving skills of 
other service providers and citizens in their communities.
    The Bureau's FY 2001 request for an additional $18.8 
million in law enforcement funding would help build on these 
proactive efforts to reduce crime and allow the Bureau to 
continue its collaborative law enforcement efforts.

    I think we are actually going to see an increase in the 
crime rate, but only because we are arresting more criminals 
than we have in the past. So the statistics may be deceptive. 
But certainly the anecdotal information I receive from the 
field indicates that law enforcement is becoming more 
aggressive and more pervasive on the reservation and certainly 
badly needed.

                               EDUCATION

    Let me just mention a couple of other items briefly from 
our education budget.
    We asked for funds to increase our Family And Child 
Education program. It is an early childhood development program 
that currently operates at 22 sites. We would like to expand 
that to 44 because we are getting some very strong results. The 
heart of the program is to bring parents into the school to 
work with their young people and really involve them in the 
education of their children. Given the results we are having at 
the schools where the program exists, we would like to expand 
it.
    The second is a program that we call the Therapeutic 
Residential Dorms Model. What we are asking is for money to 
fund six pilot sites at boarding schools to begin to address 
some severe social and psychological problems that we see.
    Mr. Regula. What percentage of the Native American school 
population is in boarding schools versus living at home?
    Mr. Christie. That would be 10,000 out of the 50,000 that 
we serve, so about 20 percent.
    Mr. Gover. In these boarding schools, we find that we end 
up primarily with troubled young people. These are not model 
students. They are not the kids that come from very stable 
family environments. In fact, they are very likely to have had 
previous experiences with the criminal justice system, 
certainly have already failed in their local public or tribal 
school. Quite often we are dealing with alcohol and substance 
abuse issues, whether in the child or in the family. Often we 
are dealing with domestic violence or sexual abuse.
    We get these kids in a very damaged condition. All we are 
able to do is provide them a warm bed, warm meals, and a basic 
instructional program. Right now we have no availability to 
provide them the kind of therapy, emotional, and psychological 
services that are required if we are going to rescue these 
young people. If they fail in our schools, the next stop is 
juvenile detention or jail, whether it be a tribal jail or the 
Federal prisons.
    I have a long presentation that I make about this in 
general, but I think we have inherited the legacy of a horribly 
misguided boarding school policy at the beginning and through 
the middle of this century. So now we are dealing with the 
children and grandchildren of people who themselves were abused 
or dehumanized in the boarding school system that we operated 
earlier in this century.
    Mr. Regula. Your boarding school operation is not 
necessarily because of distance. It may be because of lack of 
family stability and they are put in the boarding school.
    Mr. Christie. That is correct. Geographic isolation is not 
the issue anymore. Less than .5 percent would be for that 
reason. The rest of it is socioeconomic, physical abuse, mental 
health problems, family and home problems.
    Mr. Regula. It makes your job a challenge.
    Mr. Gover. It makes it virtually impossible right now while 
we are unable to offer anything beyond the very basic 
instruction program that any school could provide.
    As I said, these young people are slipping away from us. 
They will become burdens on the Government--both the tribal 
government and the Federal Government--in years to come if we 
cannot intervene at an earlier stage and try to get them on a 
path that will lead them into productive and useful lives.
    Mr. Chairman, those are the highlights of the request we 
have made this year. Obviously, we have asked for a large 
increase. We are part of a larger Administration initiative to 
improve our services to Indian Country. In our budget, we tried 
to focus on needs that are basically indisputable, things that 
we know need to be done, areas where we carry a legacy of 
failure. We would like to reverse that legacy and begin to 
address some of these issues.
    We know it is a lot of money. We know the constraints under 
which the Committee operates. But we certainly ask for and 
appreciate your assistance in trying to deal with some of these 
very serious human issues that exist in Indian Country.
    [The statement of Mr. Gover follows:]
    Offset Folios 250 to 258 Insert here

<SKIP PAGES = 009>

                          Student Performance

    Mr. Regula. Your role would be somewhat custodial as 
opposed to being an educator.
    Mr. Christie. In the dorms, that is correct.
    Mr. Regula. But the dorms are operated under your bureau? 
It is a total package.
    Mr. Christie. That is correct.
    Mr. Regula. Do you get children only of school age?
    Mr. Christie. Our FACE program moves into the home at birth 
and deals with the parents up to age three. Then we bring them 
into a center-based program. Then we move them from that 
center-based program into kindergarten. But from then on they 
are in our schools in both day schools--which means they can 
live at home and go to school. in our peripheral dorms where we 
have a dormitory adjacent to a public school, and in our own 
reservation dorms where they can stay in the community and move 
back and forth--but a large segment of them live 7 days a week 
in those dorms--and then our schools of last resort are our 
off-reservation boarding schools where everybody is in the 
dorms and everybody has these major mental health, behavior, 
and social problems.
    Mr. Regula. I see your report card for 1998 showed 
improvement in key statistics. Is this a real improvement in 
student performance? Is it reflected this year?
    Mr. Christie. The data that we collected from the last 
school session--165 out of 173 schools have been collected--
preliminarily it shows about a 2 percent increase in our 
language arts achievement. Our math achievements are staying 
virtually the same. Our attendance rates have gone up and our 
drop-out rates have gone down.
    So it is good. It is not where we want it to be, but it is 
moving in the right direction.
    Mr. Regula. Do you have a problem getting teachers?
    Mr. Christie. Yes, sir, we do. As you know, nationwide 
there is a major teacher shortage. We are paying the DOD rates 
in our Bureau-operated schools, which allows us to be very 
competitive. Then we are allowed geographic and other additions 
to those salaries to attract teachers. We are having a major 
problem in attracting enough special education teachers.
    Mr. Regula. Does your Department have supervision over the 
students who go to the non-Indian schools but are paid for by 
the BIA on a tuition basis? Do you have any impact on those? If 
these students go off-reservation to non-Indian operated 
school, then you lose any jurisdiction. Is that correct?
    Mr. Christie. That is correct. Our ISEP Program funds 
Bureau-operated, grant, and contract schools. They can be 
either on-reservation or off-reservation according to where 
they are located. We have jurisdictional control over those, 
but we have reporting problems under our P.L. 100-297 grants 
that is similar to the problems with P.L. 93-638 contracts 
because our legislation does not allow us to go in to monitor 
and evaluate the actual education program there.
    But if they go to a public school, where 90 percent of the 
Indian students in the United States go, the only program we 
have for public schools is the Johnson O'Malley Program, which 
is in the TPA part of the budget and is run locally by the 
tribe and by the local education parent committees. But all the 
rest of the schools, whether parochial or public, are out from 
under our control.
    Mr. Regula. But 90 percent of the potential student body 
goes to the public schools?
    Mr. Christie. That is correct. Out of about 500,000 school-
age Indian children, we have about 50,000; 450,000 go to public 
schools or parochial schools.
    Mr. Regula. Ms. Manuel, you are in charge of programs other 
than education. Can you give us some success stories?

                        Law Enforcement Progress

    Ms. Manuel. I am very proud of our law enforcement 
initiative. As the Assistant Secretary has indicated, we are 
beginning our third year. Although it is the third year, I 
think it will take--when you take into account the recruitment, 
the training, and actually putting the officers on the street, 
it will take us another year or two before we actually start 
seeing the results of the initiative.

                      Trust Management Improvement

    I am also very engaged in the Trust Management Improvement 
Project. In that regard, this last go-around where we spent a 
great deal of time revising the High Level Implementation 
Plan--I am particularly proud of the fact that the Bureau has 
come quite a long way from 2 years ago when we were just 
beginning to appreciate the magnitude of the problems and what 
we were seeking to address with the High Level Implementation 
Plan.
    As Mr. Thompson indicated, in the backlog area we are now 
actually going to be seeing the light at the end of the tunnel 
in that the appraisal backlog will be brought to a manageable 
level.
    I am looking forward to the implementation of the Probate 
Reinvention Lab recommendations, and in particular putting in 
place the attorney decisionmakers at the ten Regional Offices 
that have the largest volume of probate backlogs, bringing on 
probate specialists, paralegals--the skills that we need to 
start moving these cases through the system and over to the 
Administrative Law Judge.
    The commitment is there. Now we need to bring on additional 
staff. As you have heard from testimony this morning, the same 
people are doing collateral duty.
    Mr. Regula. Do you support the NAPA recommendation?

                              NAPA Support

    Ms. Manuel. Absolutely. I knew that it was there. I have 
been at the Bureau 10 years, in my present position 5 years. It 
has been frustrating, to say the least, to try to bring some 
reform to the organization and all it took was to have a 
credible organization come in and confirm everything we have 
been saying for years.
    Mr. Regula. This should give you some leverage now to make 
some of these improvements.
    Ms. Manuel. Exactly.
    Mr. Regula. Mr. Dicks?

                          School Construction

    Mr. Dicks. On your school construction budget, you are 
asking for very substantial increases.
    How much of the fiscal year 1999 and fiscal year 2000 
construction funding has been obligated as of this time?
    Mr. Gover. I have to apologize, Congressman. I do not know 
the answer, but I will provide it in writing.
    [The information follows:]
    Offset Folios 264 Insert here

<SKIP PAGES = 001>

    Mr. Dicks. Does anyone here know it?
    Mr. Gover. In the last couple of years, Congressman, we 
have been able to spend--as I recall, in 1998, we committed 
over 100 percent of what had been appropriated because we are 
still pulling out of previous years. This year I believe we 
fell just short of 100 obligation.
    Mr. Dicks. Some people have suggested that if you did a 
phased funding--in other words, you could do more schools if 
you budgeted over a 2-year period than requiring all the money 
to be put up front. Have you thought about that?
    Mr. Gover. We have thought about it. The way we are 
directed to prepare our budget, it was not an option that was 
presented to us. But certainly if the committee wants to work 
on such an approach, we are amenable and would look forward to 
working on it with you.

                              Budget Cycle

    Mr. Regula. Would a 2-year cycle for budgeting and 
appropriations make your job more effective? And would you be 
able to be more efficient?
    Mr. Gover. I believe that it would. I have been reading 
about that proposal. I think it is an excellent idea. I would 
just add that, of course, things come up in the course of 2 
years that one would not anticipate.
    Mr. Regula. We have supplemental appropriations bills, as 
you well know.
    Mr. Gover. I do support that idea.
    Mr. Regula. Thank you.
    I yield back.

                       School Construction Costs

    Mr. Dicks. The average cost per school in your budget 
request is $21 million. That is very high.
    Mr. Gover. It is very expensive.
    Mr. Dicks. Is it because of the rural nature? We have the 
same problem in military construction of housing. One of these 
had a price tag of almost $40 million. The cost per square foot 
was well over $200, more than double the average cost for 
building public schools elsewhere in the country.
    Tell us why.
    Mr. Gover. I think the cost of building schools is simply 
going up because of a number of new requirements like the ADA 
requirements, the special education requirements, and a variety 
of other education reform initiatives that do create new 
structural requirements in these buildings.
    I think the heart of the matter, though, really is the 
rural location and the fact that we build one school at a time. 
We get no advantages of having a major ongoing construction 
program that would allow us to contract long-term at better 
prices than others could get. We are building schools in 
Chinle, Arizona, and places even more remote than that as 
opposed to some of the more urban or less rural locations. I 
believe that is responsible for most of the additional costs we 
seem to incur.
    Mr. Dicks. Are these competitively bid?
    Mr. Gover. The tribes can contract to build these schools. 
And they are entitled to the contract if they ask us for it. 
However, they in turn are required to bid at least most 
elements of the project.
    Mr. Christie. And we don't have sewer systems and water 
systems to hook into, so we have to create our own sewer 
systems and water systems as part of these construction 
efforts.

                           Contract Oversight

    Mr. Dicks. Last year numerous questions were raised about 
construction practices at the Lac Courte Oreilles school. What 
have you done to assure that the type of problems that occurred 
at this school will not happen again?
    Could you explain for the record what did happen?
    Mr. Gover. We had some severe cost overruns at Lac Courte 
Oreilles and compounded by the fact that the tribe built a much 
larger school than the Congress had authorized or that we had 
authorized for them. So they had built a building much bigger 
than the one we had agreed to and then were looking to us for 
more money that went beyond what we had already agreed to.
    Mr. Dicks. Sounds like defense contractors. [Laughter.]
    Mr. Gover. I think the idea was sort of possession being 
nine-tenths of the law. It made sense to them to be aggressive.
    We have since resolved the matter with Lac Courte Oreilles. 
The tribe actually has accepted the responsibility and the cost 
for finishing that school.
    Mr. Dicks. So it will be finished?
    Mr. Gover. It will be finished.
    Mr. Dicks. And then equipped?
    Mr. Gover. Yes.
    Mr. Dicks. I understand one of the problems was that they 
built the school but had no money left to put any equipment 
into it.
    Mr. Gover. That is correct. That is the cost that I just 
talked about.
    In order to avoid those kinds of problems in the future and 
at this Committee's urging, we did put together an oversight 
plan that involves empowering some of our field managers, 
training them to oversee these kinds of projects, and to 
evaluate up front rather than later in the process the 
capabilities of the tribes to monitor this kind of construction 
so that we can put them in a category that will describe how 
much oversight we need to expend in any given situation. We are 
hopeful that that will avoid situations of that type in the 
future.

                           School Operations

    Mr. Dicks. According to your budget, the average 
expenditure per weighted student is $3,685 at BIA facilities. 
The average cost per student nationally is about $6,800. How do 
these numbers relate to each other?
    Mr. Gover. Not very well, frankly. I think probably the 
larger number--the $6,800--probably includes construction costs 
or something because the number we work with is about $5,300 or 
$5,500, which we think represents the expenses that go into the 
ongoing operation of the school.
    Regardless of how you do it, we come in considerably behind 
the national average in terms of dollars spent per student. A 
weighted student unit is not necessarily a student. A 
particular student might actually equal 1.8 WSUs because we add 
factors of disabilities, special education needs, and that sort 
of thing.
    But we are about $1,000 per student behind the national 
average in our judgment.

                             Student Count

    Mr. Dicks. Do you have authority to oversee student counts 
at contract or compact schools?
    Mr. Gover. Yes, we do. I must say we have not done a 
particularly good job of that in the past. I believe that is 
changing under Joe Christie's leadership and we are beginning 
to crack down on how those counts are conducted.
    We were finding that the schools were inflating their 
enrollments and their student counts in some very creative 
ways. We have identified many of those ways and are stopping 
those practices.
    I think the problem here, Mr. Chairman, in all honesty, is 
that we have not exercised the authority we have as 
aggressively as we should. That is about to change. We are 
going to issue some new regulations on the conduct of the 
student count to again see that this sort of thing is not going 
on.

                            Tribal Colleges

    Mr. Dicks. There was an increase of $2.9 million for the 
Tribally Controlled Community Colleges. How will these funds 
affect the per student funding level? We still have a major 
shortfall here, correct?
    Mr. Gover. It will leave us well behind the national 
average. It closes the gap only a small amount between what 
Tribal Community Colleges receive and what is expended on, say, 
a northern Virginia community college.

                        Law Enforcement Request

    Mr. Dicks. Your budget request again identifies reducing 
violent crime in Indian Country as a critical need. We 
understand that you have set specific goals for reducing so-
called class one crimes over a 5-year period beginning last 
year.
    Would you review for the committee where we are, starting 
in terms of rates of crime and what goals are being set?
    Mr. Gover. Mr. Chairman, maybe we can supply that for the 
record, or we have our director of law enforcement services 
here.
    [The information follows:]
     Offset Folios 272 Insert here

<SKIP PAGES = 001>

    Mr. Dicks. Well, let the Director say a word or two. He has 
been back there waiting eagerly. [Laughter.]
    Mr. Quasula. My name is Ted Quasula, Director of BIA Law 
Enforcement Services. I am certainly pleased to provide some 
remarks. Thank you.
    Specifically to your question, we will get you more 
specific information, but we just started out with this program 
for increasing law enforcement in Indian Country. Like 
education, we are in the process of hiring. Our requirements 
are such that not too many people get to become cops. You have 
to undergo a stringent background check, various tests, and 
what not. We are starting to hire, as are tribes.
    As the Assistant Secretary said earlier, violent crime in 
Indian Country is much higher than off-Indian Country. The age 
of the Indian is very young. We have a number of young people 
approaching the age where there is a tendency to commit crime. 
Between 1997 and 1998 calendar years, according to the records 
provided by tribes and the BIA field offices, we have had a 56 
percent increase in violent crime, Part One of the FBI annual 
crime report, which is terrible. We are way behind the curve as 
far as sufficient and adequate staffing out there. We are 
playing catch-up. We do not have our 1999 figures yet, but we 
will shortly. But from all indications, crime is continuing to 
increase, particularly violent crime involving young people.
    Mr. Dicks. Part of this crime effort is shared with the 
Department of Justice. Their fiscal year 2001 budget for Indian 
law enforcement increases from $57 million to $139 million. How 
are these activities coordinated?
    Mr. Gover. Very closely. We participate with Justice and 
Justice tries to fill the gaps that we are unable to fill. For 
example, in the construction of detention facilities, their 
COPS programs is supplementing our efforts to put more officers 
on the street. They are also targeting, for example, tribal 
courts, some drug law enforcement issues that we are unable to 
reach, and child protection issues. So we are trying not to 
spend money twice. We are trying to go forward in locked step 
with a unified program.

                     Timber-Fish-Wildlife Programs

    Mr. Dicks. I was disappointed that your budget did not 
continue funding for the timber, fish, and wildlife program 
which Congress funded last year with $4 million. Is that based 
on budgetary constraints?
    Mr. Gover. I assume so, Congressman. We certainly agreed 
with you that that was an important program and sent it forward 
into the process. When it came out the other end, it was not 
there.

                                Forestry

    Mr. Dicks. I can just tell you that those are very good 
programs. We have very serious problems under the Endangered 
Species Act in the Pacific Northwest, which is why we are 
trying to fund this. We will try to continue this.
    Finally, there is no current forest plan in place that will 
allow harvesting of timber?
    Mr. Gover. That is correct.
    Mr. Dicks. How long does it take to get a forest plan in 
place? And there is no money in the budget.
    Mr. Gover. That's the larger obstacle. If we had the 
people, we could do them really fast.
    Mr. Dicks. BIA has to do them?
    Mr. Gover. BIA or the tribes have to do it. It can be one 
or the other.
    Mr. Dicks. Was this a shock? Did this come out of the blue 
or did the tribes know this was going to happen?
    Mr. Gover. It came as a shock to me. I do not know what the 
tribes knew about it. I was surprised to hear that we were 
unable to harvest timber without such a plan. We are scrambling 
right now to deal with this contingency and to start getting 
plans in place where they do not already exist.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. As a follow-up, is there a lot of harvestable 
timber out there on Indian lands that as a matter of good 
management ought to be harvested?
    Mr. Gover. Yes.
    Mr. Dicks. And a lot of it is being and has been harvested.
    Mr. Regula. But it cannot be done now, can it?
    Mr. Dicks. If they have a forest plan----
    Mr. Regula. Do some of the tribes have forest plans?
    Mr. Gover. Yes.
    Mr. Dicks. They want to know what their sustainable harvest 
can be.
    Mr. Regula. It makes sense.
    Mr. Dicks. And for good environmental reasons, too.
    Mr. Regula. Mr. Nethercutt?

                    Replacement School Priority List

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome to you all.
    I would like to ask about the issue of priority for 
replacement school construction.
    Until 1992, BIA revised its priority list each year. The 
Paschal Sherman School in my district in eastern Washington is 
a good example of how the rankings were changed. In 1982, the 
school was ranked 14th on the priority list. By 1985, the 
school's ranking increased to number three. After 1985, the 
school dropped off the list. It didn't appear again until this 
year. Now it is ranked 12th out of 13. Just 2 months ago, we 
had a fire at that school, an electrical fire. This is a very 
serious need we have. We need a replacement school. I think we 
feel as if we have been jockeyed back and forth, up and down, 
and around with respect to being on the list, or not on the 
list, and why we were not on the list. If we were number three, 
why is it not fully constructed by now?
    So, please tell me what is happening with respect to this 
priority list. If we are 12th of 13, are we going to stay that 
way? Or could we be number one in 2 months?
    Mr. Gover. I have to give you just a little history.
    When Congress froze the list in 1992 and told us to stop 
having a new list every year because of exactly the complaint 
that you are presenting. So we did. That left us with a list of 
16 schools. In a sense, it was arbitrary because you have to 
ask why the 1992 list as opposed to 1991 or 1993, but that is 
what happened. This business of changing the list every year 
needed to stop. We have stuck to that list since that time.
    We are now about to complete it. The first three schools on 
the new list you just mentioned are the last three on the old 
list.
    Mr. Nethercutt. The old list as of 1992?
    Mr. Gover. That is right.
    The new list that we developed--we did an application 
process and told every school in the country that if they 
wanted to apply now was their chance. Paschal Sherman competed 
successfully.
    I will commit to you that I do not intend to change that 
list and I would encourage the Committee to tell us not to 
change that list so that again we can work our way through the 
current list, get it done, and then start looking to yet 
another list.
    I certainly understand the frustration. There are so many 
schools out there that are in a dangerous condition right now. 
I hate not being able to say that I can take care of all the 
problems, but the reality is that we cannot.
    Mr. Nethercutt. I understand.
    I appreciate your willingness to stay with the list and not 
take people off when they get to number three. That was 
difficult for us out west.

                          Detention Facilities

    The same is true with respect to law enforcement and 
correction facilities, detention facilities for the tribal 
organizations. We were on the list for a detention center--I 
understand that goes through the Department of Justice with 
respect to construction.
    Mr. Gover. It does now.
    Mr. Nethercutt. I am wondering to what extent the Colville 
Tribe is listed or not listed or in line to get some detention 
facilities for adults in our tribe.
    Mr. Gover. I would like to let Mr. Quasula respond.
    Mr. Quasula. We have one list in law enforcement. Colville 
is number eight. The first five projects have been completed. 
Number six, the tribe got tired of waiting on us and built it 
themselves. So we are at number seven, and number eight is 
Colville.
    Justice awarded out of their fiscal year 1999 funds to 
Colville for detention construction about $4.5 million, which 
is short of what is really required. The tribe has to leverage 
considerably.
    Mr. Nethercutt. What communications are ongoing with 
respect to their ability to raise that additional money or to 
get the additional assistance? Do you know the status as we sit 
here?
    Mr. Quasula. I think just about every project DOJ has 
funded, tribes have come to us saying, would you pay a 
percentage of this? Of course, our construction dollars are 
zero and that is not what they want to hear.
    Mr. Nethercutt. Well, that is a very real problem. We talk 
about law enforcement, and the community policing is another 
one that we really need in our region, as well as other regions 
of the country in tribal areas.
    I would hope you would be thoughtful about it. Maybe it is 
up to us to try to decide how we can provide some additional 
assistance--and that is a challenge--but this is a serious 
problem in Indian Country.
    Mr. Quasula. It is a real issue.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Moran?
    Mr. Moran. Thank you, Mr. Chairman.

                         RECOGNITION OF TRIBES

    First of all, I want to thank the BIA for providing 
technical assistance to us in the effort to introduce 
legislation granting sovereignty to eight tribes in Virginia. 
This is an unbelievable history. These are the original tribes 
that first met the colonial settlers--Chief Powhatan and 
Pocahontas were members of those tribes--since that first 
contact, Virginia made it illegal to be a Native American. 
Between 1912 and 1966, it was punishable by imprisonment if you 
were to describe yourself as American Indian or Native 
American. In fact, you could not get your baby out of a 
hospital unless you described them as ``colored'' in those 
days.
    So it was impossible to sustain their claims, even though 
their claims date back to the kings of England in the 17th and 
18th century. It was an illegal usurpation of their rights. But 
it is going to be very difficult now because obviously the 
lands have been settled and there are people who are afraid 
that they may use their sovereignty for gambling on those 
lands. I am sure that some Indian tribes are going to oppose it 
because it means dividing up the pie even further. But it is 
the right thing to do.
    In fact, if I can, I would like to introduce a couple of 
articles on these tribes into the record.
    Would that be all right, Mr. Chairman?
    Mr. Regula. Without objection, the referenced articles will 
appear in the record.
    [The information follows:]
    Offset Folios 282 to 299 Insert here

<SKIP PAGES = 018>

                           TUITION ASSISTANCE

    Mr. Moran. Thank you, Mr. Chairman.
    Last year, Congressman Davis, Delegate Norton, and I 
introduced legislation that granted children of the District of 
Columbia the ability to get reimbursed for in-state tuition if 
they went to college out of State because there was 
insufficient higher education opportunities in the District of 
Columbia. So they could get the same tuition that Virginia, for 
example, would offer its residents and likewise for Maryland.
    Do you think it is possible that that kind of approach 
could be used to obtain more affordable higher education 
opportunities in the States outside of Indian reservations for 
residents of the reservations?
    Mr. Gover. We had that thought when we first heard about 
the legislation, and yes I do. It would allow us to stretch 
very, very scarce scholarship dollars that we allocate to the 
tribes much further. And I am sure the tribes would welcome 
that sort of initiative.
    Mr. Moran. You would think. And you would think it would be 
a reasonable, fair, and affordable thing to do.
    Mr. Regula. If you clear that with the authorizers, we 
might consider putting it on our bill.
    Mr. Moran. Wonderful. Terrific.
    Mr. Regula. That can sometimes be a challenge, though.
    Mr. Moran. I understand. Thank you, Mr. Chairman. That is 
worth pursuing.

                          INDIAN COUNTRY TOUR

    Mr. Chairman, has the committee gone out to visit Indian 
reservations like Pine Ridge and so on?
    Mr. Regula. Not as a committee. I have done it personally.
    Mr. Moran. I know you have.
    Mr. Regula. Would you like to visit one?
    Mr. Moran. I think it might be useful. I know the President 
was moved when he saw the conditions at Pine Ridge. It might be 
helpful to put it together.
    Mr. Regula. That's a big responsibility we have. You were 
not here earlier, but I reported that the taxpayer spends $9 
billion on Indian programs. We have about $4 billion in our 
bill, but Ag, HUD, and a whole host of other bills have 
programs they fund, as well. So it is a major policy 
expenditure.
    Mr. Moran. I know you have gone to see them, but maybe more 
of us ought to go with you.
    Mr. Regula. That's a suggestion.
    Mr. Moran. I think most of the questions I would have asked 
have already been addressed, so I am not going to take up your 
time. We will have other opportunities and obviously I am in 
support of the recipients of the BIA's efforts and funds.
    That is all, Mr. Chairman. Thank you.

                               CONCLUSION

    Mr. Regula. Well, I think, Mr. Gover, you can see that the 
Committee is sensitive to the problems, and I think you are, 
too. I think the NAPA report provided a good blueprint. It is 
going to take some funding, and we are well aware of that. But 
if we can enhance the quality of life of the Native Americans, 
we have all done a good deed. I am sure that is part of your 
goal.
    Mr. Gover. Mr. Chairman, we should all assume this is my 
last appearance before this Committee and that I will not be 
presenting the 2002 budget, but let me just say what a pleasure 
it has been and how much we appreciate the support we have 
gotten. I hope to leave my successor a much stronger 
organization than I inherited. If I am able to do so, that is 
very much the work of this committee more than my own.
    Mr. Regula. Thank you. I think it has been a team effort. 
It takes leadership in your Department and it takes our 
sensitivity to what you are trying to do. It is bipartisan, as 
you can well see. That has been the goal of all of us because 
particularly the young people on the reservations depend on us. 
Their future is in our hands in many respects.
    Is family life, which is so fundamental, improving on 
reservations? We hear a lot about family and family life.
    Mr. Gover. I suppose it depends on which reservation you 
are talking about. In some places we are seeing the families 
really reemerge, restrengthen themselves, and provide the kind 
of guidance to the young people that is necessary. In other 
places, they have not yet turned the corner. In fact, we get 
increasing indications of family not just dysfunction, but 
family violence and the sexual abuse of children is on the 
increase in some communities. So there is good news and bad 
news.
    You have to remember that the United States set out at the 
turn of this century to destroy the Indian family. That was 
essentially what the policy was. We shipped off the young 
people to boarding schools, we denied them their languages, we 
denied them their usual cultural practices--all of which were 
very much constructed around the family. So what we inherit 
today is the legacy of some terribly misguided policy.
    Mr. Regula. I think what you are saying illustrates the 
importance of leadership in your positions. But we in turn have 
to give you the support you need to provide that leadership. We 
thank you all for what you have done and for your testimony 
today and for taking a sense of responsibility.
    With that the subcommittee is recessed until this 
afternoon, when we hear from the Smithsonian on its fiscal year 
2001 budget request.
    [Additional questions for the record follow:]
    Offset Folios 304 to 354 Insert here

<SKIP PAGES = 051>

    Offset Folio 355 Insert here

<SKIP PAGES = 001>

    Offset Folio 356 Insert here

<SKIP PAGES = 001>

    Offset Folios 357 to 387 Insert here

<SKIP PAGES = 031>

    Offset Folio 388 Insert here

<SKIP PAGES = 001>

    Offset Folios 389 to 391 Insert here

<SKIP PAGES = 003>

    Offset Folio 392 Insert here

<SKIP PAGES = 001>

    Offset Folios 393 to 431 Insert here

<SKIP PAGES = 039>

    Offset Folios 432 to 437 Insert here

<SKIP PAGES = 006>

    Offset Folio 438/600 Insert here

<SKIP PAGES = 001>





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Burzyk, C. M.....................................................     3
Christie, Joe....................................................   133
Clement, Kathy...................................................     3
Devaney, E. E....................................................   315
Fenn, Denny......................................................     3
Gilbert, D. A....................................................   133
Gover, Kevin.....................................................   133
Groat, C. G......................................................     3
Hanson, Royce....................................................   133
Hirsch, Robert...................................................     3
Leahy, Pat.......................................................     3
Manuel, H. A.....................................................   133
McLean, Robert...................................................     3
Neves, C. E......................................................   133
Quasula, T. R....................................................   133
Thompson, T. M...................................................   133
Trezise, J. D....................................................     3
Witmer, Dick.....................................................     3


                               I N D E X

                              ----------                              

                         U.S. Geological Survey

                                                                   Page
Advanced National Seismic System.................................    26
Avian Vacuolar Myelinopathy Study................................32, 33
Basic Research...................................................    49
Biography of Charles G. Grant....................................    13
Biology in USGS..................................................    25
Chesapeake Bay Watershed.........................................    40
Clean Water Programs.............................................    15
Coastal and Marine Geology Program...............................    42
Cooperation Between USGS and States..............................    41
Cooperative Research Units.......................................    34
Coordination With Federal Partners...............................19, 20
Credible Science.................................................    19
Early U.S. Mapping...............................................     3
Earthquake Program...............................................    27
Endangered and At Risk Species...................................    47
Everglades Science Before Investment.............................    17
Everglades Scientific Research...................................    14
Federal Strategies for Invasive Species..........................    35
Fire Detection Efforts...........................................46, 47
Future Biological Directions.....................................    43
GAP Program......................................................    28
Geographic Information Systems...................................    31
Great Lakes...............................................37-39, 44, 45
    Mapping..................................................39, 44, 45
    Restoration..................................................    37
    Science Funding..............................................37, 38
Ground-Water Research Funding.................................... 21-23
Ground-Water Study...............................................    16
Harbor Seals at Hood Canal.......................................    36
Information Access...............................................    49
Information to Local and State Governments.......................    47
Interagency Coordination.........................................    32
International....................................................14, 15
    Concern for Endangered Species...............................    15
    Information Sharing..........................................    14
    Scientific Cooperation.......................................    14
Introductions....................................................     4
Invasive Species.........................................27, 28, 34, 35
    Funding......................................................    35
    In Washington State..........................................    27
    Interagency Group............................................    35
    Lead Federal Agency..........................................    28
Lands Legacy Initiative..........................................    21
Livable Communities Initiative...................................    20
Long Distance Learning...........................................    46
Maintenance Backlog..............................................42, 43
Mapping and Digitizing Schedule..................................    42
Nation's Water Supply............................................    16
Ohio Pilot Project...............................................    46
Opening Remarks..................................................   4-7
    USGS Mission.................................................     4
    Listening Sessions...........................................     4
    Outstanding Scientists.......................................     5
    Infrastructure Investments...................................     5
    Budget Highlights............................................   5-7
Partnerships With Colleges.......................................    48
Proposed Budget's Funding Level..................................    18
Questions Submitted for the Record............................... 51-80
    From Congressman Kingston.................................... 78-80
    From Congressman Kolbe.......................................    75
    From Congressman Nethercutt..................................76, 77
    From the Subcommittee........................................ 51-74
Real-Time Hazards Funding........................................    27
Real-Time Hazards Initiative.....................................    29
Salmon Research..................................................    28
Saltwater Intrusion..............................................    33
Scientific Integrity.............................................    24
Sea Lamprey Control..............................................    36
Side-Scan Sonar Mapping..........................................    40
Southeast Research on Amphibians.................................    32
Southeastern Water Supplies...................................... 29-31
Stream Restoration Partnerships..................................    24
Streamgage Monitoring............................................    15
Streamgage Replacement...........................................    16
Testimony........................................................  8-12
    America's Natural Heritage...................................    12
    Budget Highlights............................................ 10-12
    Livable Communities..........................................    10
    Safer Communities............................................    10
    Sustainable Resources for the Future.........................    11
U.S. Geological Survey's Age.....................................     3
U.S. Water Quality...............................................    17
Uncontrollable Cost Offsets......................................    41
USGS.................................................21, 34, 41, 43, 48
    And FWS Relationship.........................................    43
    Botanists....................................................    43
    Presence in Ohio.............................................    34
    Public Communication.........................................    48
    Reorganization...............................................    41
    Visit Worthwhile.............................................    21
Visitors to USGS Facilities......................................    48
Visits to USGS Web Sites.........................................    49
Volunteer Program................................................    48
Wellsboro Research and Development Laboratory....................25, 26
Zebra Mussels in the Great Lakes.................................36, 37

                      Minerals Management Service

Geological Interpretive Tools....................................    85
Management of Funds..............................................    89
Offsetting Collection of Fees....................................    83
Oil Valuation Rulemaking.........................................    88
Royalty Reengineering Initiative.................................    87

          Office of Surface Mining Reclamation and Enforcement

Appalachian Clean Streams........................................   109
Emergency Reclamation Program....................................   106
Environmental Protection.........................................   115
Federal Reclamation Program......................................   108
Internet Service.................................................   127
Minimum Level Programs...........................................   112
Mountaintop Mining...............................................   122
Small Operators Assistance Program...............................   102
United Mineworkers Health Fund...................................   104

Bureau of Indian Affairs and Office of the Special Trustee for American 
                                Indians

Accountability of Expenditures...................................   160
Additional Questions Submitted for the Record:
    From the Committee...........................................   220
    From Mr. Dicks...............................................   266
    From Mr. Skeen...............................................   269
BIA Trust Increases..............................................   171
Budget Cycle.....................................................   192
Budget Increases.................................................   158
Budget Priorities................................................   175
Bureau Commitment................................................   158
Conclusion.......................................................   218
Contract Oversight...............................................   193
Detention Facilities.............................................   198
Education........................................................   177
Employee Development.............................................   159
Forestry.........................................................   196
Fractionated Shares..............................................   171
Indian Country Tour..............................................   218
Information Security.............................................   162
Land Ownership Records...........................................   171
Law Enforcement:
    Progress.....................................................   189
    Request......................................................   194
National Academy of Public Administration Report:
    Relocation...................................................   146
    Field Resources..............................................   147
    Status of Implementation.....................................   154
    NAPA's Impact................................................   155
    Office Relocation............................................   162
    NAPA Support.................................................   189
Office of the Special Trustee....................................   164
Opening Remarks..................................................   133
Opening Statements on FY 2001 Budget Requests:
    Mr. Gover....................................................   175
    Mr. Thompson.................................................   165
Opening Statements on NAPA Report:
    Mr. Gover....................................................   145
    Mr. Hanson...................................................   133
Recognition of Tribes............................................   199
Replacement School Priority list.................................   197
School Construction..............................................   190
School Construction Costs........................................   192
School Operations................................................   193
Self Determination...............................................   159
Settlement.......................................................   174
Single Audits....................................................   159
Statements Submitted for the Record:
    Mr. Gover..................................................148, 179
    Mr. Thompson.................................................   167
    Mr. Hanson...................................................   136
Student Count....................................................   194
Student Performance..............................................   188
Sunset of Trustee's Office.......................................   171
System Management................................................   163
Timber-Fish-Wildlife Programs....................................   196
Tribal Colleges..................................................   194
Trust Reform:
    Accomplishments..............................................   165
    Budget.......................................................   173
    Timeframe....................................................   166
    Trust Management Improvement.................................   189
Trust Responsibilities...........................................   161
Tuition Assistance...............................................   218

                       Office of Insular Affairs

American Samoa...................................................   284
Brown Tree Snake Program.........................................   304
Commonwealth of Northern Mariana Islands.........................   291
Compact of Free Association......................................   294
General..........................................................   275
Grant Management System..........................................   299
Guam.............................................................   286
Hawaiian Natives.................................................   280
Virgin Islands...................................................   281

                    Office of the Inspector General

Audits...........................................................   315
Full-Time Employment.............................................   320
Investigations...................................................   316
MMS Embezzlement.................................................   321
Statement of Inspector General Devaney...........................   315
Summary of Audit Recommendations.................................   351
Top Ten Management Problems...............................318, 323, 327
Uncontrollable Increases.........................................   320

                         Indian Health Service

Construction:
    Fort Defiance, AZ Hospital...................................   389
    Hospital and Clinic..........................................   391
    Joint Ventures...............................................   396
    Priority List................................................   388
    Staff Quarters Construction..................................   390
Contract Health Services.........................................   381
Equipment......................................................366, 385
Equity...........................................................   366
Facilities Maintenance.........................................365, 383
Fixed Costs......................................................   362
Health Professional Shortages....................................   369
Hospitals and Clinics............................................   364
Increases, Distribution of.......................................   378
Indian Health Care Improvement Fund..............................   367
New Tribes Funding...............................................   382
Other Health Service Programs....................................   364
    Indian Health Professions....................................   365
    Tribal Management Grant......................................   365
    Urban Health.................................................   364
Pharmacist Interns...............................................   368
Podiatry Program Plan............................................   376
Sanitation Deficiency System--Priority List......................   399
Sanitation/Water and Sewer Facilities..........................365, 386
Self-Determination Contracts and Self-Governance Compacts........   380
Services.........................................................   363
Shoalwater Bay Infant Mortality..................................   381
Staffing of New Facilities--Parker River, AZ Clinic..............   379

                                <greek-d>
</pre></body></html>
